A P P E N DI X

A P P E N DI X
TA BL E OF C O NT E NTS

P a g e( s)
A p p e n di x A O pi ni o n a n d J u d g m e nt in t h e U nit e d
St a t e s C o u rt of A p p e al s f o r t h e Si xt h
Ci r c uit ( Ma r c h 1 8, 2 0 2 0) ................ A p p. 1
A p p e n di x B M e m o r a n d u m O pi ni o n i n th e
U nit e d St at e s Di st ri ct C o u rt f o r t h e
N o rt h e r n Di st ri ct of O hi o E a st e r n
Di vi si o n ( A p ril 1 5, 2 0 1 9) ........... A p p. 3 1
A p p e n di x C O r d e r D e n yi n g P etiti o n f o r R e h e a ri n g
E n B a n c i n t h e U nit e d St at e s C o u rt of
A p p e al s f o r t h e F o u rt h Ci r c uit
( J u n e 8, 2 0 2 0) .............................. A p p. 6 4

A p p. 1
A P P E N DI X A
R E C O M M E N D E D F O R
P U B LI C A TI O N

P U R S U A N T T O SI X T H CI R C UI T
I. O . P. 3 2. 1( b)

F il e N a m e: 2 0 a 0 0 8 3 p. 0 6
U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E SI X T H CI R C UI T

S H A S E H O W S E,

P l ai ntiff-A p p ell a nt ,

v.

N o. 1 9 -3 4 1 8

T H O M A S H O D O U S a n d B RI A N
M I D D A U G H, i n di vi d u all y a n d i n
t h eir offi ci al c a p a citi e s a s e m pl o y e e s
of th e Ci t y of Cl e v el a n d, O hi o; C I T Y
O F C L E V E L A N D, O H I O,
D ef e n d a nt s -A p p ell e e s .
A p p e al f r o m t h e U nit e d St at e s Di st ri ct C o u rt f o r t h e
N o rt h e r n Di st ri ct of O hi o at Cl e v el a n d.
N o. 1: 1 7 -c v -0 1 7 1 4 — D o n a l d C. N u g e nt,
D i st ri ct J u d g e.
A r g u e d: J a n u a r y 2 9, 2 0 2 0
D e ci d e d a n d Fil e d: M a r c h 1 8, 2 0 2 0

A p p. 2
B ef o r e: C O L E, C hi ef J u d g e;
C O O K a n d T H A P A R, Ci r c uit
J u d g e s.

C O U NS E L
A R G U E D: J a m e s L. H a r di m a n, Cl e v el a n d, O hi o, f o r
A p p ell a nt. El e n a N. B o o p, C I T Y O F C L E V E L A N D,
Cl e v el a n d,
O hi o, f o r
A p p ell e e s
Ho do us a n d
Mi d d a u g h. Ti m ot h y J. P ui n, C I T Y O F C L E V E L A N D,
Cl e v el a n d, O hi o, f o r A p p ell e e Cit y of Cl e v el a n d. O N
B R I E F: J a m e s L. H a r di m a n, Cl e v el a n d, O hi o, f o r
A p p ell a nt. El e n a N. B o o p, Eli z a b et h M. C r o o k, C I T Y
O F C L E V E L A N D, Cl e v el a n d, O hi o, f o r A p p ell e e s
H o d o u s a n d Mi d d a u g h. Ti m ot h y J. P ui n, C I T Y O F
C L E V E L A N D, Cl e v el a n d, O hi o, f o r A p p ell e e Cit y of
Cl e v el a n d.
T H A P A R, J., d eli v e r e d t h e o pi ni o n of t h e c o u rt
i n w hi c h C O O K, J., j oi n e d, a n d C O L E, C. J., j oi n e d i n
p a rt. C O L E, C. J. ( p p. 1 3 – 2 1), d eli v e r e d a s e p a r at e
o pi ni o n di s s e nti n g i n p a rt.

A p p. 3
O P I NI O N

T H A P A R, Ci r c uit J u d g e. S h a s e H o w s e s u e d
s e v e r al p oli c e offi c e r s a n d t h e Cit y of Cl e v el a n d f o r
a ll e g e d vi ol ati o n s of t h e F o u rt h A m e n d m e nt. T h e
d i st ri ct c o u rt di s mi s s e d t h e s uit, c o n cl u di n g t h at
n ei t h e r t h e offi c e r s n o r t h e Cit y di d a n yt hi n g w r o n g.
W e a ffi r m.
I.
O n e s u m m e r ni g ht i n 2 0 1 6, H o w s e w a s
w a l ki n g h o m e f r o m a c o n v e ni e n c e st o r e. Al o n g t h e
w a y, H o w s e s a y s a n u ni d e ntifi e d Cl e v el a n d P oli c e
off i c e r a p p r o a c h e d a n d a s k e d w h et h e r h e h a d a n y
w e a p o n s. H o w s e s ai d n o. T h e J o h n D o e offi c e r t h e n
p att e d hi m d o w n a n d s e a r c h e d hi s p o c k et s. Aft e r
fi n di n g n o c o nt r a b a n d, t h e offi c e r t ol d H o w s e t h at h e
c o ul d l e a v e.
W he n
H o w s e g ot h o m e, h e b e g a n cli m bi n g t h e
st e p s o n hi s f r o nt p o r c h. T h e p a rti e s di s p ut e w h at
h a p p e n e d n e xt.
A s H o w s e t ell s it, s e v e r al m e n (t w o of w h o m h e
lat e r i d e ntifi e d a s Offi c e r s T h o m a s H o d o u s a n d B ri a n
M i d d a u g h) p ull e d u p i n a n u n m a r k e d v e hi cl e.
M i d d a u g h a s k e d H o w s e if h e li v e d at t h e h o u s e.
H o w s e r e pli e d t h at h e di d. Mi d d a u g h a s k e d H o w s e if
h e w a s s u r e t h at h e li v e d t h e r e. H o w s e s ai d
s o m et hi n g li k e “y e s, w h at t h e f ---” in r e s p o n s e. R. 3 3 1 , P g. I D 8 1 0. T h at p r o m pt e d Mi d d a u g h t o c o m m e nt
t h at H o w s e h a d a s m a rt m o ut h a n d a b a d attit u d e.
M i d d a u g h t h e n g ot o ut of t h e c a r, w al k e d t o w a r d t h e
p o r c h, a n d a s k e d H o w s e ( y et a g ai n) if h e w a s s u r e
t h at h e li v e d t h e r e. A g ai n, H o w s e r e s p o n d e d y e s.

A p p. 4
T hi n g s e s c al at e d f r o m t h e r e. Mi d d a u g h t ol d
H o w s e t o p ut hi s h a n d s b e hi n d hi s b a c k a n d t h at h e
w a s g oi n g t o j ail. H o w s e di s o b e y e d Mi d d a u g h ’s
c o m m a n d t o p ut hi s h a n d s b e hi n d hi s b a c k. I n st e a d,
H o w s e y ell e d t h at h e h a d n ’t d o n e a n yt hi n g w r o n g
a n d t h at h e li v e d at t h e h o u s e. Mi d d a u g h r a n o nt o
t h e p o r c h, g r a b b e d H o w s e ( w h o at t h at p oi nt w a s
s c r e a mi n g at t h e t o p of hi s l u n g s), a n d t h r e w hi m
d o w n. W h e n Mi d d a u g h w a s o n t o p of hi m, H o w s e
r e ali z e d t h at
Mi d d a u g h w a s a p oli c e offi c e r.
Mi d d a u g h, wit h h el p f r o m H o d o u s, t h e n t ri e d t o
h a n d c uff H o w s e. B ut H o w s e, i n hi s o w n w o r d s, w a s
r e si sti n g a r r e st b y s c r e a mi n g a n d “stiff e ni n g u p ” hi s
b o d y. R. 2 5 -3, P g. I D 4 1 4, 4 1 5. H o w s e s a y s h e n e v e r
t ri e d t o hit, p u s h, o r fi g ht wit h t h e offi c e r s. A n d h e
c l ai m s t h at h e “di d n ’t d o a n yt hi n g t h at w o ul d b e
c o n si d e r e d off e n si v e ” t o t h e offi c e r s. I d. at 4 1 6.
At t hi s p oi nt, H o w s e ’s m ot h e r ( w h o o w n e d t h e
h o u s e) s h o w e d u p. S h e h a d h e a r d s o m e c o m m oti o n
a n d r u s h e d t o t h e f r o nt p o r c h. W h e n s h e a r ri v e d, s h e
s a w a “c h a oti c ” s c e n e:
a m a n i n d a r k cl ot hi n g
st r a d dl e d H o w s e a n d a n ot h e r m a n st r u c k H o w s e
wit h a cl o s e d fi st, w hi c h c a u s e d H o w s e ’s h e a d t o
st ri k e t h e p o r c h. R. 2 9 -4, P g. I D 7 3 5. S h e a s k e d t h e
m e n ( w h o s h e l at e r r e ali z e d w e r e p oli c e offi c e r s) t o
st o p b e ati n g h e r s o n — s h e k e pt e x pl ai ni n g t h at h e
li v e d at t h e h o u s e. Aft e r t hi n g s s ettl e d d o w n, t h e
offi c e r s p ut H o w s e i n a p oli c e c a r a n d t o o k hi m t o j ail.
T h e offi c e r s t ell a diff e r e nt st o r y. T h at ni g ht,
H o d o u s a n d Mi d d a u g h ( al o n g wit h a n ot h e r offi c e r)
w e r e p at r olli n g t h e a r e a w h e r e H o w s e li v e d — a n a r e a
k n o w n f o r vi ol e n c e, d r u g s, a n d g a n g a cti vit y. W hil e
d ri vi n g i n a n u n m a r k e d v e hi cl e, t h e y s a w H o w s e
li n g e ri n g s u s pi ci o u sl y o n t h e f r o nt p o r c h of a h o u s e.
H o ws e l o o k e d n er v o us w h e n h e s a w t h e u n m ar k e d

A p p. 5
v e hi cl e.
Mi d d a u g h t h o u g ht t h e h o u s e w a s v a c a nt
b e c a u s e it a p p e a r e d t o b e b o a r d e d u p a n d t h e r e w e r e
b a r s o n t h e d o o r s.
B ase d
o n hi s t r ai ni n g a n d e x pe r i e n c e,
M i d d a u g h s u s p e ct e d t h at H o w s e mi g ht b e e n g a g e d i n
c ri mi n al a cti vit y. S o Mi d d a u g h a s k e d H o w s e w h et h e r
h e li v e d t h e r e. H o w s e s ai d h e di d. Mi d d a u g h w a nt e d
t o i n v e sti g at e m o r e, s o h e g ot o ut of t h e c a r, w al k e d
t o w ar d H o w s e, a n d a s k e d hi m if h e w a s t r y in g t o
b r e a k i n. Mi d d a u g h d o e s n ’t r e m e m b e r e x a ctl y w h at
H o w s e s ai d i n r e s p o n s e, b ut h e d o e s r e m e m b e r t h at
H o w s e s ai d “f---” a l o n g wit h s o m e ot h e r w o r d s. R. 2 51 , P g. I D 1 7 6. ( H o d o u s, f o r w h at it’s w o rt h, r e c all s
H o w s e s a yi n g “f--- y o u ” a n d “le a v e m e t h e f --- a l o n e.”
R. 2 5 -2 , P g. I D 3 0 3.)
W he n
Mi d d a u g h r e a c h e d t h e f r o nt p o r c h,
H o w s e cl e n c h e d hi s fi st s a n d “s q u a r e d u p ” int o a
fi ghti n g st a n c e. R. 2 5 -1 , P g. I D 1 7 7.
Mi d d a u g h,
a f r ai d t h at H o w s e w a nt e d t o fi g ht, t ol d H o w s e t o p ut
hi s h a n d s i n t h e ai r. H o w s e i g n o r e d t h at i n st r u cti o n
a n d i n st e a d m oti o n e d t o w a r d s hi s p o c k et s, w hi c h
p r o m pt e d Mi d d a u g h t o g r a b H o w s e ’s a r m. H o d o u s
joi n e d Mi d d a u g h a n d t ri e d t o r e st r ai n H o w s e, w h o
w a s g r a b bi n g at t h e offi c e r s a n d fl aili n g a r o u n d.
H o w s e st r u c k H o d o u s i n t h e c h e st. H o w s e a l s o t ri e d
t o r i p off M i d d a u g h’s fl as hli g ht a n d h a n d c uff c a s e.
S o M id d a u g h u s e d a l e g s w e e p t o t a k e H o w s e t o t h e
g r o u n d. E v e n w hil e o n t h e g r o u n d, H o w s e r e si st e d
t h e offi c e r s b y b u r yi n g hi s h a n d s u n d e r n e at h hi s
c h e st. T h e offi c e r s e v e nt u all y h a n d c uff e d hi m a n d
p ut hi m i n a p oli c e v e hi cl e. It w a s n ’t u ntil H o w s e ’s
m ot h e r s h o w e d u p, t h e offi c e r s cl ai m, t h at t h e y f o u n d
o ut t h a t H o w s e di d i n f a ct li v e at t h e h o u s e.
( Whil e t h e p a rti e s h a v e off e r e d t w o v a stl y
d iff e r e nt a c c o u nt s of w h at h a p p e n e d, w e m u st vi e w

A p p. 6
t h e f a ct s i n t h e li g ht m o st f a v o r a bl e t o H o w s e. Bl et z
v. G ri b bl e , 6 4 1 F. 3 d 7 4 3, 7 5 7 ( 6t h Ci r. 2 0 1 1). T h at
m e a n s w e i g n o r e w h at t h e offi c e r s all e g e h a p p e n e d
t o t h e e xt e nt t h at it c o nfli ct s wit h w h at H o w s e
all e g e s h a p p e n e d t h a t ni g ht. S o w hil e w e t ell b ot h
si d e s f o r t h e s e n s e of c o m pl et e n e s s, w e a c c e pt t h e
pl ai ntiff ’s v e r si o n w h e n d e ci di n g w h et h e r t h e offi c e r s
a r e e ntitl e d t o q u alifi e d i m m u nit y.)
K e e pi n g t h at p ri n ci pl e i n mi n d, w e c a n
c o nti n u e wit h s o m e u n di s p ut e d f a ct s. Aft e r H o w s e
w a s b o o k e d i nt o j ail, Mi d d a u g h si g n e d a c o m pl ai nt
c h a r gi n g H o w s e wit h a s s a ulti n g a p oli c e offi c e r.
H o d o u s a n d Mi d d a u g h t h e n w r ot e u p “U s e of F o r c e ”
r e p o rt s d et aili n g w h at h a p p e n e d o n t h e f r o nt p o r c h.
T h e s e r e p o rt s s ai d t h at H o w s e r e si st e d a r r e st a n d
st r u c k t h e offi c e r s. Aft e r a f e w d a y s, H o w s e p o st e d
b o n d a n d w a s r el e a s e d. L at e r, a g r a n d j u r y i n di ct e d
hi m o n t w o c o u nt s of a s s a ult al o n g wit h o n e c o u nt of
o b st r u cti o n of offi ci al b u si n e s s. B ut t h e St at e
e v e nt u all y di s mi s s e d t h e c h a r g e s.
H o w s e t h e n s u e d H o d o u s a n d Mi d d a u g h
u n d e r 4 2 U. S. C. § 1 9 8 3 f o r vi ol ati n g hi s F o u rt h
A m e n d m e nt ri g ht s a n d f o r c o m mitti n g a s s a ult a n d
b att e r y u n d e r O hi o l a w. H e al s o s u e d t h e Cit y of
Cl e v el a n d, cl ai mi n g t h at t h e Cit y w a s r e s p o n si bl e f o r
t h e F o u rt h A m e n d m e nt vi ol ati o n s. T h e di st ri ct c o u rt
g r a nt e d s u m m a r y j u d g m e nt f o r t h e d ef e n d a nt s. T hi s
a p p e al f oll o w e d.
I I.
H o w s e b r o u g ht t h r e e cl ai m s a g ai n st H o d o u s
a n d Mi d d a u g h: ( 1) a cl ai m f o r e x c e s si v e f o r c e u n d e r
t h e F o u rt h A m e n d m e nt, ( 2) a cl ai m f o r m ali ci o u s
p r o s e c uti o n u n d e r t h e F o u rt h A m e n d m e nt, a n d ( 3) a
cl ai m f o r a s s a ult a n d b att e r y u n d e r O hi o l a w. W e
a d d r e s s e a c h cl ai m i n t u r n.

A p p. 7
F o u rt h A m e n d m e nt — E x c e s si v e F o r c e . H o w s e
fi r st a r gu e s t h at H o d o u s a n d Mi d d a u g h vi ol at e d t h e
F o u rt h A m e n d m e nt w h e n t h e y st o p p e d hi m wit h o ut
r e a s o n a bl e s u s pi ci o n a n d u s e d e x c e s si v e f o r c e d u ri n g
hi s a r r e st. I n r e s p o n s e, t h e offi c e r s a s k f o r q u alifi e d
im m u nit y.
Q u a lifi e d i m m u nit y s hi el d s l a w e nf o r c e m e nt
off i ce r s f r o m ci vil li a bilit y u nl e s s t h e offi c e r s ( 1)
v i ol at e d a st at ut o r y o r c o n stit uti o n al ri g ht a n d ( 2)
t h e u nl a wf ul n e s s of t h ei r c o n d u ct w a s cl e a rl y
e st a b li s h e d at t h e ti m e. Di s t ri ct of C ol u m bi a v.
W e s b y , 1 3 8 S. Ct. 5 7 7, 5 8 9 ( 2 0 1 8). H o w s e m u st s h o w
t h at b oth p r o n g s a r e m et h e r e. M a b e n v. T h el e n , 8 8 7
F . 3 d 2 5 2, 2 6 9 ( 6t h Ci r. 2 0 1 8).
W e b e gi n o u r a n al y si s wit h t h e s e c o n d p r o n g —
b y a s ki n g w h et h e r t h e u nl a wf ul n e s s of t h e offi c e r s ’
c o n d u ct w a s cl e a rl y e st a bli s h e d at t h e ti m e t h e y
a p p r o a c h e d a n d a r r e st e d H o w s e. S e e P e a r s o n v.
C a ll a h a n, 5 5 5 U. S. 2 2 3, 2 3 6 ( 2 0 0 9). “Cl e a rl y
e st a b li s h e d” m e a n s t h at t h e l a w i s s o cl e a r at t h e
tim e of t h e i n ci d e nt t h at e v e r y r e a s o n a bl e offi c e r
w o ul d u n d e r st a n d t h e u nl a wf ul n e s s of hi s c o n d u ct.
W e s b y , 1 3 8 S. Ct. at 5 8 9. T h at ’s a d ef e r e nti al r ul e.
A n d f o r g o o d r e a s o n: offi c e r s oft e n fi n d t h e m s el v e s
in p o siti o n s w h e r e t h e y m u st m a k e s plit -s e c o n d
d e ci si o n s i n d a n g e r o u s sit u ati o n s. I n t h o s e c r u ci al
s e c o n d s, offi c e r s d o n ’t h a v e t h e ti m e t o p ull o ut l a w
b o o k s a n d a n al y z e t h e fi n e p oi nt s of j u di ci a l
p r e c e d e nt. T o a v oi d “p a r al y si s b y a n al y si s, ” q u alifi e d
im m u nit y p r ot e ct s all b ut pl ai nl y i n c o m p et e nt
off i c e r s o r t h o s e w h o k n o wi n gl y vi ol at e t h e l a w.
R u d ol p h v. B a bi n e c , 9 3 9 F. 3 d 7 4 2, 7 5 6 ( 6t h Ci r. 2 0 1 9)
( T h ap a r, J., c o n c u r ri n g i n p a rt a n d di s s e nti n g i n
p a rt).
Wi t h all t hi s i n mi n d, w e c o n si d e r H o w s e ’s

A p p. 8
cl ai m. H o w s e a r g u e s t h at t h e offi c e r s vi ol at e d hi s
cl e a rl y e st a bli s h e d ri g ht t o
b e fr e e fr o m
“u n r e a s o n a bl e g o v e r n m e nt i nt r u si o n s. ” A p p ell a nt
B r. at 1 8. B ut t h at f r a m e s t h e “cl e a rl y e st a bli s h e d ”
t e st at t o o hi g h a l e v el of g e n e r alit y. T h e l a w m u st b e
s p e cifi c e n o u g h t o p ut a r e a s o n a bl e offi c e r o n cl e a r
n oti c e t h at hi s c o n d u ct i s u nl a wf ul. S e e W e s b y , 1 3 8 S.
Ct. at 5 9 0. T h e ri g ht t o b e f r e e f r o m “u n r e a s o n a bl e
g o v e r n m e nt i nt r u si o n s ” i s m u c h t o o v a g u e t o d o t h at.
I n st e a d, w e m u st e x a mi n e t h e p a rti c ul a r
sit u ati o n t h at H o d o u s a n d Mi d d a u g h c o nf r o nt e d a n d
a s k w h et h e r t h e l a w cl e a rl y e st a bli s h e d t h at t h ei r
c o n d u ct w a s u nl a wf ul. T o a n s w e r t hi s q u e sti o n, w e
m u st a s k w h et h e r e v e r y r e a s o n a bl e offi c e r w o ul d
k n o w t h at l a w e n f o r c e m e nt c a n n ot t a c kl e s o m e o n e
w h o di s o b e y e d a n o r d e r a n d t h e n u s e a d diti o n al f o r c e
if t h e y r e si st b ei n g h a n d c uff e d. I m p o rt a ntl y, t hi s
q u e sti o n a s k s a b o ut t h e l a wf ul n e s s of c o n d u ct u n d e r
t h e F o u rt h A m e n d m e nt. A n d i n t h at c o nt e xt, t h e
S u p r e m e C o u rt h a s st r e s s e d “t h e n e e d t o i d e ntif y a
c ase
w h e r e a n offi c e r a cti n g u n d e r si mil a r
ci r c u m st a n c e s ” w a s f o u n d “t o h a v e vi ol at e d t h e
F o u rt h A m e n d m e nt. ” I d. ( cl e a n e d u p). Wit h o ut s u c h
a c a s e, t h e pl ai ntiff will al m o st al w a y s l o s e. S e e i d.
H o w s e h a s n ’t i d e ntifi e d a n y c a s e t h at
a d d r e s s e s t h e c o n d u ct at i s s u e h e r e ( a n d w e a r e n ’t
a w a r e of a n y eit h e r). I n st e a d, H o w s e cit e s a si n gl e
c a s e i n s u p p o rt: T e r r y v. O hi o , 3 9 2 U. S. 1 ( 1 9 6 8). B ut
t h at c a s e d o e s hi m n o g o o d. T e r r y h el d t h at a s e a r c h
di d n ot vi ol at e t h e F o u rt h A m e n d m e nt b e c a u s e t h e
l a w e nf o r c e m e nt offi c e r r e a s o n a bl y b eli e v e d t h at t h e
s u s p e ct s w e r e e n g a g e d i n c ri mi n al a cti vit y a n d mi g ht
b e a r m e d a n d d a n g e r o u s. I d. at 3 0 – 3 1. T h e c a s e h a s
n ot hi n g t o d o wit h e x c e s si v e f o r c e. S o T e r r y d o e s n ’t
cl e a r l y e st a bli s h t h at l a w e nf o r c e m e nt c a n n ot t a c kl e

A p p. 9
a n o n-c o m pli a nt s u s p e ct a n d u s e a d diti o n al f o r c e
a g ai n st hi m if h e r e si st s a r r e st. Cf . R u dl aff v.
Gil li s pi e, 7 9 1 F. 3 d 6 3 8, 6 4 1 – 4 2 ( 6t h Ci r. 2 0 1 5)
( e x pl ai ni n g t h at u si n g a t a s e r o r a k n e e st ri k e
a g ai n st s o m e o n e w h o i s a cti v el y r e si sti n g a r r e st d o e s
n ot q u alif y a s e x c e s si v e f o rc e).
B e c a u s e t h e all e g e d u nl a wf ul n e s s of t h e
off i c e r s’ c o n d u ct w a s n ’t cl e a rl y e st a bli s h e d, t h e
off i c e r s a r e e ntitl e d t o q u alifi e d i m m u nit y. 1
T h e di s s e nt c o n cl u d e s ot h e r wi s e aft e r it f r a m e s t h e q u e sti o n
a s f oll o w s: “ w h et h e r it vi ol at e s a cl e a rl y e st a bli s h e d
c o n stit u ti o n al ri g ht f o r a n offi c e r t o t h r o w a p e r s o n t o t h e g r o u n d
i n o r d e r t o a r r e st t h at p e r s o n wit h o ut p r o b a bl e c a u s e.”
D i s s e nti n g O p. at 1 6 (f o ot n ot e o mitt e d). Of c o u r s e, it’ s t r u e t h at
a n offi c e r c a n n ot a r r e st s o m e o n e wit h o ut p r o b a bl e c a u s e. B ut
it’ s al s o t r u e t h at a n offi c e r d o e s n’t n e e d p r o b a bl e c a u s e t o st o p
s o m e o n e — r e a s o n a bl e s u s pi ci o n i s e n o u g h. T e r r y , 3 9 2 U . S. at
3 0 – 3 1. T h u s, t h e l e v el of j u stifi c ati o n d e p e n d s o n w h et h e r t h e
o ffi c e r i s c a r r yi n g o ut a st o p o r a n a r r e st. S e e U nit e d St at e s v.
M a rti n e z , 8 0 8 F. 3 d 1 0 5 0, 1 0 5 3 ( 5t h Ci r. 1 9 8 7).
1

T h e m e r e a ct of h a n d c uffi n g s o m e o n e d o e s n’t t r a n sf o r m a st o p
i nt o a n a r r es t. T h at’ s b e c a u s e a n offi c e r m a y te m p o r a ril y
h a n d c uff s o m e o n e d u ri n g a T e r r y s t o p “ s o l o n g a s t h e
ci r c u m st a n c e s w a r r a n t t h at p r e c a uti o n.” U nit e d St at e s v.
F o st e r , 3 7 6 F. 3 d 5 7 7, 5 8 7 ( 6t h Ci r. 2 0 0 4). S o it i s n’t o b vi o u s t h at
th e offi c e r s w e r e eff e ct u ati n g a n a r r e st ( r at h e r t h a n a n
i n ve sti g at o r y st o p) w h e n t h e y t a c kl e d a n d h a n d c uff e d H o w s e.
A c k n o wl e d gi n g t hi s p oi nt, t h e di s s e nt cit e s C e n t a n ni v. Ei g ht
U n k n o w n Offi c e r s , 1 5 F. 3 d 5 8 7, 5 9 1 ( 6t h Ci r. 1 9 9 4) t o s h o w t h at
th e offi c e r s a r r e st e d H o w s e w h e n t h e y i niti al l y t h r e w hi m t o t h e
g r o u n d. B ut C e n t a n ni c u t s a g ai n st th e di s s e nt’ s c o n cl u si o n.
T h at’ s b e c a u s e C e n t a n ni s a y s t h at a n a r r e st g e n e r all y d o e s n’t
o c c u r u ntil t h e offi c e r s p h y si c all y r e m o v e t h e s u s p e ct f r o m t h e
s c e n e. S e e i d. O f c o u r s e, t h e offi c e r s h a d n’t r e m ov e d H o w s e f r o m
th e s c e n e w h e n t h e y i niti all y t h r e w hi m d o w n. S o t h at w o ul d
m e a n t h e offi c e r s d i d n’t n e e d p r o b a bl e c a u s e u ntil t h e y r e m o v e d
h i m f r o m hi s h o m e a n d t o o k hi m t o t h e s t ati o n.

A p p. 1 0
F o u rt h A m e n d m e nt — M ali ci o u s P r o s e c uti o n .
H o w s e n e xt a r g u e s t h at H o d o u s a n d Mi d d a u g h
c o m mitt e d m ali ci o u s p r o s e c uti o n w h e n t h e y h el p e d
p r o s e c ut o r s c h a r g e hi m wit h t w o c o u nt s of a s s a ult
a n d o n e c o u nt of o b st r u cti n g offi ci al b u si n e s s. T o wi n
o n t h at cl ai m, H o w s e m u st s h o w ( a m o n g ot h e r
t hi n g s) t h at t h e offi c e r s h el p e d st a rt a p r o s e c uti o n
a g ai n st hi m wit h o ut p r o b a bl e c a u s e. Ki n g v.
H a r w o o d , 8 5 2 F. 3 d 5 6 8, 5 8 0 ( 6t h Ci r. 2 0 1 7). P r o b a bl e
c a u s e e xi st s w h e n t h e r e a r e e n o u g h “f a ct s a n d
ci r c u m st a n c e s ” t o m a k e a r e a s o n a bl e p e r s o n b eli e v e
t h at “t h e ac c u s e d w a s g uilt y of t h e c ri m e c h a r g e d. ”
W e b b v. U nit e d St at e s , 7 8 9 F. 3 d 6 4 7, 6 6 0 ( 6t h Ci r.
2 0 1 5) ( cl e a n e d u p).
T o b e gi n wit h, t h e r e ’s e n o u g h e vi d e n c e f o r a
r e a s o n a bl e p e r s o n t o b eli e v e t h at H o w s e o b st r u ct e d
offi ci al b u si n e s s. S o m e o n e o b st r u ct s offi ci al b u si n e s s
w h e n h e a ct s wit h t h e p u r p o s e of o b st r u cti n g o r
d el a yi n g a n offi c e r f r o m p e rf o r mi n g a l a wf ul d ut y
a n d h e a ct u all y h a m p e r s o r i m p e d e s t h e offi c e r. O hi o
R e v. C o d e § 2 9 2 1. 3 1; St at e v. H e n r y , 1 1 0 N. E. 3 d 1 0 3,
1 1 6 ( O hi o Ct. A p p. 2 0 1 8). O hi o c o u rt s h a v e
i nt e r p r et e d t hi s c ri m e b r o a dl y. F o r e x a m pl e,
s o m e o n e m a y b e c o n vi ct e d if t h e y m a k e it “m o r e
diffi c ult ” f o r l a w e nf o r c e m e nt t o g ai n c o nt r ol of a
sit u ati o n, St at e v. Fl o r e n c e , N o. C A 2 0 1 3-0 8 -1 4 8,
2 0 1 4 W L 2 5 2 6 0 6 9, at * 3 ( O hi o Ct. A p p. J u n e 2, 2 0 1 4),
o r i nt e rf e r e wit h a n offi c e r’s att e m pt t o a r r e st
s o m e o n e, St at e v. O v e r h olt , N o. 2 9 0 5-M, 1 9 9 9 W L
E v e n if w e a s s u m e t h e offi c e r s c a r ri e d o ut a n a r r e st
u n s u p p o rt e d b y p r o b a bl e c a u s e, t h at d o e s n’t c h a n g e t h e o ut c o m e
h e r e. H o w s e still n e e d s a c a s e p utti n g t h e offi c e r s o n cl e a r n oti c e
t h at t h ei r u s e of f o r c e w a s e x c e s si v e. A n d w e still a r e n’t a w a r e
of o n e.

A p p. 1 1
6 3 5 7 1 7, at * 4 ( O hi o Ct. A p p. A u g. 1 8, 1 9 9 9). H e r e,
H o w s e hi m s elf a d mitt e d t h at h e t ri e d t o m a k e it
m o r e diffi c ult f o r t h e offi c e r s t o a r r e st hi m b y
sti ff e ni n g u p hi s b o d y a n d s c r e a mi n g at t h e t o p of hi s
lu n g s. T h at ’s e n o u g h t o p r o vi d e p r o b a bl e c a u s e f o r
t h e o bst r u cti n g -off i ci al-b u si n e s s c h a r g e.
A n d b e c a u s e t h e r e w a s p r o b a bl e c a u s e f o r t h at
c h a r g e, H o w s e c a n n ot m o v e f o r w a r d wit h a n y of hi s
m a li ci o u s-p r o s e c uti o n cl ai m s.
A c c o r di n g t o o u r
c i r c uit, m ali ci o u s-p r o s e c uti o n cl ai m s a r e b a s e d o n
t h e F o u rt h A m e n d m e nt. S p u rl o c k v. S att e rfi el d , 1 6 7
F . 3 d 9 9 5, 1 0 0 6, 1 0 0 6 n. 1 9 ( 6t h Ci r. 1 9 9 9).2 Al t h o u g h
w e c all it a cl ai m f o r m ali ci o u s p r o s e c uti o n, t h at ’s a
b it of a mi s n o m e r. Aft e r all, o u r ci r c uit d o e s n’t e v e n
r e q ui r e a s h o wi n g of m ali c e t o s u c c e e d o n s u c h a
c l ai m. S y k e s v. A n d e r s o n , 6 2 5 F. 3 d 2 9 4, 3 1 0 ( 6t h Ci r.
2 0 1 0). It ’s r e all y a cl ai m f o r a n “u n r e a s o n a bl e
p r o s e c ut o ri al
s ei z u r e ”
g o v er n e d
by
F o u rt h
A m e n d m e nt p ri n ci pl e s. I d. ( cl e an e d u p); s e e al s o
G r e g o r y v. Cit y of L o ui s vill e , 4 4 4 F. 3 d 7 2 5, 7 4 8 – 4 9
A m aj o rit y of t h e S u p r e m e C o u rt h a s n ot y et d e ci d e d w h et h e r
th e r e i s a c o g ni z a bl e cl ai m f o r m ali ci o u s p r o s e c uti o n u n d e r t h e
F o u rt h A m e n d m e nt. J u sti c e Alit o, w riti n g i n di s s e nt i n M a n u el
v. Cit y of J oli et , r e a s o n e d t h at m ali ci o u s -p r o s e c uti o n cl ai m s d o
n ot a ri s e u n d e r t h e F o u rt h A m e n d m e nt. 1 3 7 S. Ct. 9 1 1, 9 2 3
(2 0 1 7) ( Alit o, J., di s s e nti n g). If t h e y a r e c o n stit uti o n all y
c o g ni z a bl e at all, h e s ai d, t h e y m u st a ri s e u n d e r a n ot h e r
c o n stit u ti o n al p r o vi si o n — p r e s u m a bl y t h e D u e P r o c e s s Cl a u s e.
I d . B u t b e c a u s e o u r ci r c uit h a s h el d t h at a f e d e r al m ali ci o u s p r o s e c uti o n cl ai m d o e s a ri s e u n d e r t h e F o u rt h A m e n d m e nt ( a n d
n ot t h e D u e P r o c e s s Cl a u s e), w e a r e b o u n d b y t h at d e ci si o n a n d
m u st c o n si d e r F o u rt h A m e n d m e nt p ri n ci pl e s w h e n d efi ni n g t h e
s c o p e of t h e cl ai m. S e e, e. g. , S y k e s v. A n d e r s o n , 6 2 5 F. 3 d 2 9 4,
3 1 0 ( 6t h Ci r. 2 0 1 0) (r ef u si n g t o i m p o rt t h e c o m m o n -l aw m ali c e
r e q ui r e m e nt i nt o a f e d e r al m ali ci o u s -p r o s e c uti o n cl ai m b e c a u s e
th at w o ul d c o nfli ct wit h F o u rt h A m e n d m e nt p ri n ci pl e s).
2

A p p. 1 2
( 6t h Ci r. 2 0 0 6).
U n d e r t h e F o u rt h A m e n d m e nt, a n offi c e r c a n
s ei z e s o m e o n e s o l o n g a s h e h a s p r o b a bl e c a u s e t h at
t h e p e r s o n h a s vi ol at e d t h e l a w. F o r e x a m pl e,
s u p p o s e a p oli c e offi c e r cl o c k s s o m e o n e d ri vi n g
t w e nt y mil e s p e r h o u r o v e r t h e s p e e d li mit. T h e
offi c e r p ull s o v e r t h e d ri v e r a n d off e r s t w o r e a s o n s f o r
t h e st o p. T h e fi r st i s t h at h e s a w t h e d ri v e r s p e e di n g.
T h e s e c o n d i s t h at h e s u s p e ct e d t h at t h e d ri v e r mi g ht
h a v e ill e g al d r u g s. E v e n if t h e r e ’s n ot hi n g t o s u p p o rt
t h e offi c e r’s h u n c h a b o ut d r u g s, t h e offi c e r still h a s
p r o b a bl e c a u s e t o st o p t h e c a r f o r s p e e di n g. S e e
W h r e n v. U nit e d St at e s , 5 1 7 U. S. 8 0 6, 8 1 1– 1 3 ( 1 9 9 6).
S o t h e s ei z u r e d o e s n ’t vi ol at e t h e F o u rt h A m e n d m e nt
e v e n t h o u g h o n e of t h e j u stifi c ati o n s f o r t h e st o p w a s
m e ritl e s s.
T h at ’s w h y t h e c o n stit uti o n al t o rt cl ai m of
f al s e a r r e st f ail s s o l o n g a s t h e r e’s j u st o n e v ali d
r e a s o n f o r t h e a r r e st. A f al s e a r r e st, a s it s n a m e
s u g g e st s, i s si m pl y a n a r r e st w hi c h i s n ’t s u p p o rt e d b y
p r o b a bl e c a u s e. W e b b , 7 8 9 F. 3 d at 6 6 6. T h e S u p r e m e
C o u rt h a s h el d t h at t h e r e a s o n t h e offi c e r gi v e s f o r
a n a r r e st n e e d n ot b e t h e r e a s o n w hi c h a ct u all y
p r o vi d e s p r o b a bl e c a u s e f o r t h e a r r e st. D e v e n p e c k v.
Alf o r d , 5 4 3 U. S. 1 4 6, 1 5 3– 5 5 ( 2 0 0 4). If t h e f a ct s
k n o w n t o t h e offi c e r s s u p p o rt p r o b a bl e c a u s e i n a n y
f o r m, t h e n a n i n di vi d u al m a y l a wf ull y b e a r r e st e d.
I d. at 1 5 5. S o it f oll o w s t h at w h e n a n offi c e r a r r e st s
s o m e o n e b a s e d o n m ulti pl e c h a r g e s, “it i s n ot
r el e v a nt w h et h e r p r o b a bl e c a u s e e xi st e d wit h r e s p e ct
t o e a c h i n di vi d u al c h a r g e. ” J a e gl y v. C o u c h , 4 3 9 F. 3 d
1 4 9, 1 5 4 ( 2 d Ci r. 2 0 0 6) ( S ot o m a y o r, J.). W h at m att e r s
i s t h e v ali dit y of t h e a r r e st (t h e s ei z u r e) a n d n ot t h e
v ali dit y of e v e r y c h a r g e (t h e p ot e nti al j u stifi c ati o n s
f o r t h e s ei z u r e). I d. A s l o n g a s t h e a r r e st i s s u p p o rt e d

A p p. 1 3
b y p r o b a bl e c a u s e o n o n e c h a r g e, t h e n a f al s e a r r e st
c l ai m c a n n ot m o v e f or w a r d. S e e A l m a n v. R e e d , 7 0 3
F . 3 d 8 8 7, 9 0 0 n. 3 ( 6th Ci r. 2 0 1 3); s e e al s o Gill v. Cit y
of Mil w a u k e e , 8 5 0 F. 3 d 3 3 5, 3 4 2 ( 7t h Ci r. 2 0 1 7);
T at u m v. Cit y & Ct y. of S a n F r a n ci s c o , 4 4 1 F. 3 d
1 0 9 0, 1 0 9 5 ( 9t h Ci r. 2 0 0 6).
T h e s a m e r ul e s a p pl y h e r e. Aft e r all, cl ai m s f o r
f als e a r r e st a n d m ali ci o u s p r o s e c uti o n b ot h a ri s e
u n d e r t h e F o u rt h A m e n d m e nt. T h e y b ot h hi n g e o n
a n all e g e d u n r e a s o n a bl e s ei z u r e. A n d t h e y b ot h ri s e
a n d f all o n w h et h e r t h e r e w a s p r o b a bl e c a u s e
s u p p o rti n g t h e d et e nti o n. I n d e e d, j u st li k e i n t h e
c o nt e xt of f al s e a r r e st s, a p e r s o n i s n o m o r e s ei z e d
w h e n h e ’s d et ai n e d t o a w ait p r o s e c uti o n f o r s e v e r al
c h a r g e s t h a n if h e w e r e s ei z e d f o r j u st o n e v ali d
c h a r g e. I n t h e e n d, t h e r e ’s n o p ri n ci pl e d r e a s o n f o r
t re ati n g a F o u rt h A m e n d m e nt m ali ci o u s -p r o s e c uti o n
c l ai m diff e r e ntl y t h a n a F o u rt h A m e n d m e nt f al s ea r r e st c l ai m.3
B e c a u s e t h e r e w a s p r o b a bl e c a u s e t o p r o s e c ut e
H o w s e f o r o b st r u cti n g offi ci al b u si n e s s, h e c a n n ot
p r o c e e d o n hi s ot h e r m ali ci o u s -p r o s e c uti o n c l ai m s.
O hi o l a w— A s s a ult & B att e r y. H o w s e al s o s u e d
T h e c o nt r a r y c o n cl u si o n s of ot h e r ci r c uit s d o n’t p e r s u a d e u s
o t h e r wi s e. T h e S e c o n d Ci r c uit h a s h el d t h at e a c h c ri mi n al
c h a r g e m u st b e s u p p o rt e d b y p r o b a bl e c a u s e. P o s r v. D o h e rt y ,
9 4 4 F. 2 d 9 1, 1 0 0 ( 2 d Ci r. 1 9 9 1). O t h e r wi s e, t h e c o u rt r e a s o n e d,
a n offi c e r mi g ht t a c k o n m a n y a d diti o n al ( m e ritl e s s) c h a r g e s.
I d. ; cf . H ol m e s v. Vill a g e of H off m a n E st ate , 5 1 1 F. 3 d 6 7 3, 6 8 1 –
8 3 ( 7t h Ci r. 2 0 0 7). T a c ki n g o n m e ritl e s s c h a r g e s, h o w e v e r, d o e s
n ot c h a n g e t h e n at u r e of t h e s ei z u r e. If h y p ot h eti c all y it w e r e t o
c h a n g e t h e l e n gt h of d et e nti o n, t h at w o ul d b e a diff e r e nt i s s u e.
B u t t h e pl ai ntiff h a s n ot p r e s e nt e d a n y e vi d e n c e t h at t h e
a d d iti o n al a s s a ult c h a r g e s c a u s e d H o w s e t o s uff e r l o n g e r
d et e nti o n.
3

A p p. 1 4
H o d o u s a n d Mi d d a u g h f o r a s s a ult a n d b att e r y u n d e r
O hi o l a w. F o r t hi s cl ai m, H o w s e m u st s h o w ( 1) t h at
t he offi c e r s a ct e d wit h a n i nt e nt t o c a u s e h a r mf ul o r
off e n si v e c o nt a ct a n d ( 2) t h at s u c h c o nt a ct o c c u r r e d
(t h at’s b att e r y) o r t h at h e t h o u g ht t h at s u c h c o nt a ct
w o ul d o c c u r (t h at ’s a s s a ult). S e e L o v e v. Cit y of P o rt
Cli nt o n , 5 2 4 N. E. 2 d 1 6 6, 1 6 7 ( O hi o 1 9 8 8); S mit h v.
J o h n D e e r e C o. , 6 1 4 N. E. 2 d 1 1 4 8, 1 1 5 4 ( O hi o Ct.
A p p. 1 9 9 3).
T h e offi c e r s o n c e a g ai n cl ai m t h at t h e y ’r e
i m m u n e f r o m s uit. T hi s ti m e, t h e y p oi nt t o a n O hi o
st at ut o r y p r o vi si o n w hi c h p r o vi d e s a g e n e r al g r a nt of
i m m u nit y t o g o v e r n m e nt e m pl o y e e s. O hi o R e v. C o d e
§
2 7 4 4. 0 3( A)( 6).
T h at
p r o vi si o n c r e at e s
“a
p r e s u m pti o n of i m m u nit y ” t h at c a n b e o v e r c o m e o nl y
i n a h a n df ul of ci r c u m st a n c e s. H off m a n v. G alli a Ct y.
S h e riff ’s Offi c e , 1 0 3 N. E. 3 d 1, 1 3 ( O hi o Ct. A p p.
2 0 1 7).
H o w s e c a n ’t p r o c e e d t o t ri al o n hi s a s s a ult a n d -b att e r y cl ai m b e c a u s e h e h a s n ’t c h all e n g e d t h e
offi c e r s ’ st at ut o r y i m m u nit y. I n d e e d, “t h e b u r d e n
n e c e s s a r y t o d e n y i m m u nit y t o [l a w e nf o r c e m e nt]
offi c e r s i s o n e r o u s. ” A r g a b rit e v. N e e r , 7 5 N. E. 3 d 1 6 1,
1 6 9 ( O hi o 2 0 1 6). A n d H o w s e off e r s n ot hi n g t o m e et
t h at b u r d e n. H e h a s n ’t a r g u e d t h at a n y e x c e pti o n t o
i m m u nit y a p pli e s h e r e. N o r h a s h e cit e d a si n gl e
O hi o c a s e t o s u p p o rt s u c h a n a r g u m e nt. B e c a u s e
H o w s e m a k e s n o a r g u m e nt o n t h e m att e r, w e
c o n cl u d e t h at t h e offi c e r s a r e e ntitl e d t o st at ut o r y
i m m u nit y. S e e P u c k ett v. L e xi n gt o n -F a y ett e U r b a n
Ct y. G o v ’t, 8 3 3 F. 3 d 5 9 0, 6 1 1 ( 6t h Ci r. 2 0 1 6).
I I I.
H o w s e al s o b r o u g ht a § 1 9 8 3 cl ai m a g ai n st t h e
Cit y of Cl e v el a n d. H e s a y s t h at C l e v el a n d i s
r e s p o n si bl e f o r t h e all e g e d c o n stit uti o n al vi ol ati o n s

A p p. 1 5
b y H o d o u s, Mi d d a u g h, a n d t h e J o h n D o e offi c e r.
M u ni ci p aliti e s m a y b e h el d li a bl e u n d e r § 1 9 8 3
f o r t h ei r o w n u nla wf ul a ct s. M o n ell v. D e p ’t of S o ci al
S e r v s. , 4 3 6 U. S. 6 5 8 ( 1 9 7 8). T o b e li a bl e, t h o u g h, it ’s
n ot e n o u g h t h at a m u ni ci p alit y ’s e m pl o y e e s vi ol at e d
s o m e o n e ’s c o n stit uti o n al ri g ht s. I n st e a d, t h e pl ai ntiff
m u s t s h o w t h at t h e m u ni ci p alit y its elf c a u s e d t h e
c o n s tit uti o n al vi ol ati o n t h r o u g h o n e of it s o w n
c u st o m s o r p oli ci e s. I d. a t 6 9 4. O n e w a y t o p r o v e
li a bilit y i s t o s h o w a m u ni ci p al p oli c y of i n a d e q u at e
t rai ni n g t h at l e d t o t h e c o n stit uti o n al h a r m. T h o m a s
v. Cit y of C h att a n o o g a , 3 9 8 F. 3 d 4 2 6, 4 2 9 ( 6t h Ci r.
2 0 0 5 ). A n ot h e r w a y i s t o s h o w a m u ni ci p al c u st o m of
t ole r ati n g ri g ht s vi ol ati o n s t h at l e d t o t h at
c o n stit uti o n al h a r m. I d.
H o w s e a r g u e s b ot h t h e o ri e s o n a p p e al. H e
c l ai m s t h at Cl e v el a n d i n a d e q u at el y t r ai n e d it s
off i c e r s a b o ut h o w t o u s e p r o p e r f o r c e. A n d h e als o
c l ai m s t h at t h e Cit y a d o pt e d a c u st o m of t ol e r ati n g
c o n stit uti o n al vi ol ati o n s.
T o st a rt, H o w s e f a c e s a n u p hill b attl e i n t r yi n g
t o p r o v e t h at Cl e v el a n d ’s ( all e g e d) i n a d e q u at e
t rai ni n g c a u s e d hi s ( all e g e d) c o n stit uti o n al i nj u ri e s.
T h at ’s b e c a u s e h e m u st s h o w ( 1) t h e t rai ni n g
p r o g r a m d i d n ot a d e q u at el y p r e p a r e t h e off i c e r s f o r
t h e ta s k s t h e y m u s t p e rf o r m, ( 2) t h e i n a d e q u a c y
r e s ult e d f r o m t h e
m u ni ci p alit y ’s
d eli b e r at e
in diff e r e n c e, a n d ( 3) t h e in a d e q u a c y eit h e r cl o s el y
r el at e d t o o r c a u s e d H o w s e ’s i nju r y. W i n kl e r v.
M a di s o n Ct y. , 8 9 3 F. 3 d 8 7 7, 9 0 2 ( 6t h Ci r. 2 0 1 8).
H o w s e c a n n ot s h o w t h at t h e s e t h r e e el e m e nt s
a re
m et h e r e. Cl e v el a n d ’s t r ai ni n g a c a d e m y ’s
st a n d a r d s
e xc e e d
st at e
r e q ui r e m e nt s,
and
Cl e v el a n d ’s p oli c e f o r c e h a s e x pli cit w ritt e n p o li ci e s
in st r u cti n g offi c e r s n ot t o u s e e x c e s si v e f o r c e. H o w s e

A p p. 1 6
off e r s n o e vi d e n c e t o t h e c o nt r a r y — at l e a st r el e v a nt
t o t h e cl ai m s h e r e. O n t o p of t h at, H o w s e h a s n ’t
s h o w n h o w a n y i n a d e q u a c y i n t h e t r ai ni n g p r o g r a m
l e d t o hi s c o n stit uti o n al i nj u ri e s. T hi s c au s ati o n
r e q ui r e m e nt i s “ri g o r o u s. ” B d. of Ct y. C o m m ’r s of
B r y a n Ct y. v. B r o w n , 5 2 0 U. S. 3 9 7, 4 1 5 ( 1 9 9 7). A n d
it’s n ot m et h e r e b e c a u s e H o w s e h a s n ’t off e r e d a n y
a r g u m e nt t h at li n k s t h e l e g al h a r m h e all e g e dl y
s uff e r e d b a c k t o Cl e v el a n d. S e e P u c k ett , 8 3 3 F. 3 d at
6 1 1.
N o r c a n H o w s e s u c c e e d u n d e r a c u st o m -of i n a cti o n t h e o r y. T o wi n o n t hi s cl ai m, H o w s e w o ul d
n e e d t o s h o w t h at Cl e v el a n d h a d n oti c e ( o r
c o n st r u cti v e n oti c e) of a “cl e a r a n d p e r si st e nt
p att e r n ” of u nl a wf ul a cti vit y. T h o m a s , 3 9 8 F. 3 d at
4 2 9 ( cl e a n e d u p). T h e n h e w o ul d n e e d t o s h o w t h at
Cl e v el a n d t a citl y a p p r o v e d of t h at u nl a wf ul a cti vit y
b y d oi n g n ot hi n g. I d. A n d t h e n h e w o ul d n e e d t o
s h o w t h at Cl e v el a n d ’s t a cit a p p r o v al w a s t h e m o vi n g
f o r c e b e hi n d hi s c o n stit uti o n al vi ol ati o n. I d. H o w s e
p oi nt s t o a D e p a rt m e nt of J u sti c e m e m o a s e vi d e n c e
of a p att e r n of u nl a wf ul a cti vit y. B ut e v e n a s s u mi n g
t h at’s e n o u g h ( a n d w e ’r e n ot s u r e it i s), H o w s e h a s n ’t
s h o w n t h at Cl e v el a n d a p p r o v e d of t h at u nl a wf ul
a cti vit y o r t h at a n y s u c h a p p r o v al c a u s e d H o w s e t o
s uff e r a c o n stit uti o n al i nj u r y.
M e r e bl a n k et
a s s e rti o n s t h at Cl e v el a n d “t ol e r at e d” o r “c o n d o n e d ”
offi c e r mi s c o n d u ct a r e n ’t e n o u g h. Bi c k e r st aff v.
L u c a r elli , 8 3 0 F. 3 d 3 8 8, 4 0 2 ( 6t h Ci r. 2 0 1 6) ( cl e a n e d
u p).
O n t h e c o nt r a r y,
Cl e v el a n d h a s t a k e n
affi r m ati v e st e p s t o c o m b at t h e u nl a wf ul u s e of
e x c e s si v e f o r c e. T h o s e st e p s i n cl u d e a t h o r o u g h u s e of -f o r c e p oli c y a n d a cti v e e nf o r c e m e nt of t h at p oli c y.
T a k e t hi s c a s e. Aft e r H o d o u s a n d Mi d d a u g h fil e d
t h ei r U s e of F o r c e r e p o rt s, s e v e r al ot h e r offi c e r s

A p p. 1 7
r e vi e w e d t h o s e r e p o rt s t o m a k e s u r e t h at t h e f o r c e
u s e d w a s r e a s o n a bl e.
I n s u m, H o w s e h a s n ’t s h o w n t h at Cl e v el a n d
c a n b e h el d r e s p o n si bl e f o r a n y c o n stit uti o n al
w r o n g s t h at H o d o u s, Mi d d a u g h, o r t h e J o h n D o e
mi g ht h a v e c o m mitt e d.
***
W e a ffi r m.

A p p. 1 8
DI S S E N TI N G I N P A R T

C O L E, C hi ef J u d g e, di s s e nti n g i n p a rt. At t hi s
st a g e, w e a r e r e q ui r e d t o vi e w t h e f a ct s i n t h e li g ht
m o st f a v o r a bl e t o H o w s e. S e e, e. g. , B r o w n v. L e wi s ,
7 7 9 F. 3 d 4 0 1, 4 1 1 ( 6t h Ci r. 2 0 1 5). T hi s p r o p o siti o n of
l a w i s n ot i n di s p ut e. T h e m aj o rit y, li k e t h e dist ri ct
c o u rt b ef o r e it, a c k n o wl e d g e s t h at w h e n t h e offi c e r s ’
v e r si o n of e v e nt s c o nfli ct s wit h H o w s e ’s, w e m u st
r e s ol v e t h at f a ct u al c o nfli ct i n H o w s e ’s f a v o r. ( M aj.
O p. at 4). M a n y of t h e m aj o rit y ’s c o n cl u si o n s,
h o w e v e r, a r e p r e di c at e d o n r e s ol vi n g k e y f a ct u al
di s p ut e s i n t h e offi c e r s ’ f a v o r. P r o p e rl y c o n si d e ri n g
t h o s e f a ct u al di s p ut e s u n d e r t h e st a n d a r d o u r
p r e c e d e nt m a n d at e s c o m p el s a diff e r e nt c o n cl u si o n
t h a n t h e m aj o rit y ’s. S p e cifi c all y, I fi n d t h at t h e f a ct s
vi e w e d i n t h e li g ht m o st f a v o r a bl e t o H o w s e
d e m o n st r at e t h at Mi d d a u g h e x e c ut e d a n a r r e st
u n s u p p o rt e d b y p r o b a bl e c a u s e u si n g e x c e s si v e f o r c e,
a n d t h e n, al o n g wit h H o d o u s, s p u r r e d a p r o s e c uti o n
of H o w s e b y m a ki n g f al s e st at e m e nt s a b o ut t h e
i n ci d e nt. A s s u c h, alt h o u g h I a g r e e wit h t h e
m aj o rit y ’s a p p r o a c h t o H o w s e ’s m u ni ci p al li a bilit y
cl ai m s, I r e s p e ctf ull y di s a g r e e wit h it s di s p o siti o n of
H o w s e ’s e x c e s si v e f o r c e, m ali ci o u s p r o s e c uti o n, a n d
st at e l a w cl ai m s.
I.

T h e F a c t s Vi e w e d i n t h e
F a v o r a bl e t o H o w s e

Li g h t

M o st

O n J ul y 2 8, 2 0 1 6, H o w s e w a s o n t h e p o r c h of
t h e h o m e h e s h a r e d wit h hi s m ot h e r, h a d hi s k e y i n
t h e g at e, a n d w a s i n t h e p r o c e s s of o p e ni n g t h e g at e

A p p. 1 9
w h e n Mi d d a u g h a n d H o d o u s, w h o w e r e n ot i n
u ni f o r m, p ull e d u p i n a n u n m a r k e d c a r. T h e offi c e r s
a s k e d H o w s e if h e li v e d at t h e r e si d e n c e, a n d H o w s e
r e s p o n d e d t h at h e di d. T h e offi c e r s st a rt e d t o p ull
a w a y b ut t h e n p ull e d b a c k a n d a s k e d H o w s e if h e
w a s s u r e t h at h e li v e d at t h e h o m e. H o w s e, a git at e d,
r e s p o n d e d t o t hi s s e c o n d i n q ui r y, “Y e s, t hi s i s m y
h o m e. W h at t h e f — .” ( R. 2 5-3 , P a g e I D 4 1 1.)
O n c e H o w s e u s e d t h e e x pl eti v e, Mi d d a u g h
c o m m e nt e d t h at H o w s e h a d a “s m a rt m o ut h. ” ( R. 2 53 , P a g e I D 4 1 1.) At t hi s p oi nt, H o w s e r e p e at e dl y
st at e d, “I li v e h e r e. I li v e h e r e.” ( R. 2 5 - 3 , P a g e I D
4 1 1.) Mi d d a u g h t h e n a p p r o a c h e d H o w s e o n t h e p o r c h
a n d o r d e r e d H o w s e t o p ut hi s h a n d s b e hi n d hi s b a c k,
st at i n g t h at H o w s e w a s “g oi n g t o j ail. ” A s H o w s e
c o nti n u e d t o p r ot e st t h at h e li v e d at t h e r e si d e n c e
a n d w a s n ot d oi n g a n yt hi n g w r o n g, M i d d a u g h t h re w
H o w s e t o t h e g r o u n d a n d att e m pt e d t o a r r e st hi m.
A s t h e c o m m oti o n c o nti n u e d, H o w s e’s m ot h e r
e m e r g e d f r o m t h e r e si d e n c e a n d p r ot e st e d t h at
M i d d a u g h w a s att e m pti n g t o a r r e st h e r s o n. W h e n
H o w s e l o o k e d u p t o s e e hi s m ot h e r, Mi d d a u g h st r u c k
hi m t wi c e i n t h e b a c k of t h e n e c k. D u ri n g Mi d d a u g h’s
a tt e m pt t o a r r e st hi m, H o w s e w a s s c r e a mi n g at t h e
t o p of hi s l u n g s a n d stiff e n e d hi s a r m s t o m a k e it
d iffi c ult f o r Mi d d a u g h t o pl a c e t h e h a n d c uff s o n
H o w s e. H o w s e n e v e r att e m pt e d t o hit o r p u s h
M i d d a u g h, r e m ai ni n g n on vi ol e nt t h r o u g h o ut t h e
e nti r e i n ci d e nt. Wit h r e g a r d t o H o d o u s, H o w s e
t e stifi e d t h at H o d o u s “w a s j u st t h e r e. ” ( R. 2 5-3 , P a g e
I D 4 1 8.) H o w s e e x pl ai n e d t h at Mi d d a u g h m a d e t h e
a r r e st w hil e H o d o u s a n d a n ot h e r offi c e r w e r e
“st a n d i n g t h e r e.” ( R. 2 5- 3 , P a g e I D 41 9.)
O n c e H o w s e w a s pl a c e d i n h a n d c uff s, h e w a s
t ak e n t o j ail, w h e r e h e st a y e d f o r t w o ni g ht s a n d

A p p. 2 0
t h r e e d a y s. A s t h e m aj o rit y n ot e s, H o d o u s a n d
Mi d d a u g h p r e p a r e d r e p o rt s d et aili n g t h e u s e of f o r c e,
w hi c h i n cl u d e d st at e m e nt s t h at H o w s e a cti v el y
r e si st e d a r r e st a n d st r u c k t h e offi c e r s a s t h e y
att e m pt e d t o i n v e sti g at e t h e sit u ati o n. Alt h o u g h a
g r a n d j u r y i n di ct e d H o w s e o n t w o c o u nt s of a s s a ult
a n d o n e c o u nt of o b st r u cti n g offi ci al b u si n e s s, t h e
st at e ulti m at el y di s mi s s e d all c h a r g e s a g ai n st
H o w s e.
II.

E x c e s si v e F o r c e Cl ai m

Fi r st, it i s i m p o rt a nt t o i d e ntif y t h e p oi nt i n
t h e ti m eli n e at w hi c h t h e all e g e dl y u nl a wf ul c o n d u ct
t o o k pl a c e, a s t h e F o u rt h A m e n d m e nt a n al y si s i s
diff e r e nt f o r a n a r r e st t h a n it i s f o r a n i n v e sti g at o r y
st o p. M u c h of t h e m aj o rit y ’s a n al y si s t r e at s t h e
i nt e r a cti o n b et w e e n H o w s e a n d t h e offi c e r s a s a
T e r r y st o p. S e e T e r r y v. O hi o , 3 9 2 U. S. 1 ( 1 9 6 8). It i s
t r u e t h at t h e r e m a y h a v e b e e n a b ri ef m o m e nt w h e r e
H o w s e ’s i nt e r a cti o n wit h t h e p oli c e m a y h a v e
q u alifi e d a s a n i n v e sti g at o r y st o p a n d r e q ui r e d o nl y
r e a s o n a bl e s u s pi ci o n u n d e r T e r r y , b ut H o w s e d o e s
n ot cl ai m t h at Mi d d a u g h vi ol at e d hi s ri g ht s d u ri n g a
T e r r y st o p. R at h e r, h e cl ai m s t h at t h e p oli c e u s e d
e x c e s si v e f o r c e, a n d all p a rti e s a g r e e t h at Mi d d a u g h
d e pl o y e d t h e f o r c e i n q u e sti o n w hil e e x e c uti n g a n
a r r e st. W h e n a n i n v e sti g at o r y st o p “ri p e n s i nt o a n
a r r e st, ” t h e a r r e sti n g offi c e r “m u st s h o w p r o b a bl e
c a u s e. ” B r o w n , 7 7 9 F. 3 d at 4 1 2 (i nt e r n al cit ati o n
o mitt e d).
H e r e, t h e offi c e r s l a c k e d p r o b a bl e c a u s e t o
a r r e st H o w s e. I n j u stif yi n g t h e e n c o u nt e r, t h e offi c e r s
n ot e t h at H o w s e w a s i n a hi g h -c ri m e a r e a a n d t h at
t h ei r e x p e ri e n c e l e d t h e m t o b eli e v e t h at t h e v a c a nt -

A p p. 2 1
lo o ki n g h o u s e c o ul d h a v e b e e n a d r u g h o u s e.
M i d d a u g h t e stifi e d t h at H o w s e’s b e h a vi o r r e mi n d e d
hi m of a n ot h e r a r r e st w h e r e h e “b eli e v e d [t h e
s u s p e ct] w a s t u c ki n g s o m et hi n g i n hi s w ai st b a n d, a
g u n . . . m a d e e y e c o nt a ct wit h t h e offi c e r i n a n
u n d e r c o v e r c a r, t o u c h e d hi s w ai st b a n d, l o o k e d a w a y,
a n d w e nt u p o n a p o r c h t h at w a s n ot hi s. ” ( R. 2 5-1 ,
P a g e I D 1 6 0– 6 1.) I n t h e p ri o r c a s e, t h e i n di vi d u al,
o n c e c o nf r o nt e d, h a d att e m pt e d t o fl e e a n d di s p o s e d
of a g u n i n t h e p r o c e s s.
E v e n if w e a s s u m e t h at t h e s e f a ct o r s c o ul d
s u p p o rt a n i n v e sti g at o r y st o p, a s t h e m aj o rit y d o e s,
t h e y c e rt ai nl y d o n ot s u p p o rt p r o b a bl e c a u s e t o m a k e
a n a r r e st. “P r o b a bl e c a u s e t o m a k e a n a r r e st e xi st s
if t h e f a ct s a n d ci r c u m st a n c e s wit hi n t h e a r r e sti n g
off i c e r’s k n o wl e d g e w e r e s uffi ci e nt t o w a r r a nt a
p r u d e nt m a n i n b eli e vi n g t h at t h e [ a r r e st e e] h a d
c o m mitt e d o r w a s c o m mitti n g a n off e n s e. ” A r n ol d v.
W il d e r, 6 5 7 F. 3 d 3 5 3, 3 6 3 ( 6t h Ci r. 2 0 1 1) (i nt e r n al
c it ati o n a n d q u ot ati o n m a r k s o mitt e d). It r e q ui r e s
“le s s t h a n p ri m a f a ci e p r o of b ut m o r e t h a n m e r e
s u s pi ci o n. ” H o o v e r v. W al s h , 6 8 2 F. 3 d 4 8 1, 4 9 9 ( 6t h
Ci r. 2 0 1 2) (i nt e r n al cit ati o n a n d q u ot ati o n m a r k s
o mi tt e d).
C r u ci all y , u nli k e t h e i n di vi d u al i n Mi d d a u g h’s
p ri o r c a s e, H o w s e n e v e r att e m pt e d t o fl e e o r r e v e al e d
hi m s elf t o b e a r m e d. P ri o r t o Mi d d a u g h t elli n g
H o w s e h e w a s g oi n g t o j ail a n d att e m pti n g t o a r r e st
hi m, H o w s e h a d d o n e n ot hi n g ill e g al at all, a n d t h e
off i c e r s d o n ot all e g e ot h e r wi s e. I n st e a d, H o w s e h a d
o nl y r e p e at e dl y a s s e rt e d t h e (t r u e) f a ct t h a t h e li v e d
a t t h e r e si d e n c e a n d s w o r n at t h e pl ai n cl ot h e s
off i c e r s w h e n t h e y k e pt a s ki n g hi m t h e s a m e
q u e sti o n. I n f a ct, a s Mi d d a u g h att e m pt e d t o a r r e st
H o w s e, hi s o nl y p r of e s s e d b a si s f o r d oi n g s o w a s

A p p. 2 2
H o w s e ’s p r of a nit y.
T h e r e a r e m a n y a cti o n s a p e r s o n c o ul d t a k e
t h at w o ul d s u p p o rt a d et e r mi n ati o n t h at a n offi c e r
h a s p r o b a bl e c a u s e t o m a k e a n a r r e st, b ut r e s p o n di n g
t o pl ai n cl ot h e s offi c e r s w h o a r e a s ki n g t h e s a m e
q u e sti o n o v e r a n d o v e r wit h a “s m a rt m o ut h ” i s n ot
o n e of t h e m. S e e Wil s o n v. M a rti n , 5 4 9 F. A p p’x 3 0 9,
3 1 1 ( 6t h Ci r. 2 0 1 3) (fi n di n g t h at w h e r e a g e st u r e w a s
“c r u d e, n ot c ri mi n al . . . offi c e r s w e r e p at e ntl y
wit h o ut p r o b a bl e c a u s e t o a r r e st [t h e p e r s o n w h o
m a d e t h e g e st u r e] f o r it ”); s e e al s o C o h e n v.
C alif o r ni a , 40 3 U. S. 1 5, 2 5 ( 1 9 7 1) ( “F o r, w hil e t h e
p a rti c ul a r f o u r -l ett e r w o r d b ei n g liti g at e d h e r e i s
p e r h a p s m o r e di st a st ef ul t h a n m o st ot h e r s of it s
g e n r e, it i s n e v e rt h el e s s oft e n t r u e t h at o n e m a n ’s
v ul g a rit y i s a n ot h e r ’s l y ri c. I n d e e d, w e t hi n k it i s
l a r g el y b e c a u s e g o v e r n m e nt offi ci al s c a n n ot m a k e
p ri n ci pl e d di sti n cti o n s i n t hi s a r e a t h at t h e
C o n stit uti o n l e a v e s m att e r s of t a st e a n d st yl e s o
l a r g el y t o t h e i n di vi d u al.”)
F o r a d diti o n al e vi d e n c e t h at t h e offi c e r s
l a c k e d p r o b a bl e c a u s e t o a r r e st H o w s e, l o o k n o
f u rth e r t h a n t h e c ri m e s h e w a s ulti m at el y c h a r g e d
wit h: t w o c o u nt s of a s s a ult o n a p oli c e offi c e r a n d o n e
c o u nt of o b st r u cti n g offi ci al b u si n e s s. T h e r e c o r d i s
c o m pl et el y d e v oi d of a n y s u g g e sti o n t h at H o w s e
a s s a ult e d t h e offi c e r s o r o b st r u ct e d offi ci al b u si n e s s
b ef o r e h e w a s a r r e st e d. A n y f a ct u al all e g ati o n t h at
w o ul d h a v e s u p p o rt e d t h o s e c h a r g e s h a d t o h a v e
a ri s e n aft e r t h e offi c e r s b e g a n t h e a r r e st. T h u s, t h e r e
w a s n o p r o b a bl e c a u s e at t h e p oi nt at w hi c h
Mi d d a u g h e n d e a v o r e d t o a r r e st H o w s e.
I t u r n n e xt t o t h e q u e sti o n of q u alifi e d
i m m u nit y. I c o n c u r wit h t h e m aj o rit y’s c o n cl u si o n
t h at H o d o u s i s e ntitl e d t o q u alifi e d i m m u nit y. H o w s e

A p p. 2 3
a d mit s t h at H o d o u s di d n ot p h y si c all y p a rti ci p at e i n
H o w s e ’s a r r e st a n d it w a s o nl y Mi d d a u g h w h o t h r e w
H o w s e t o t h e g r o u n d t o eff e c t u at e t h e a r r e st. A s f o r
M i d d a u g h, t h e m aj o rit y c o r r e ctl y st at e s t h at, i n
o r d e r t o o v e r c o m e a n a s s e rti o n of q u alifi e d
im m u nit y, H o w s e m u st s h o w t h at t h e offi c e r s
v i ol at e d a cl e a rl y e st a bli s h e d c o n stit uti o n al ri g ht.
E. g ., Di st ri ct of C ol u m bi a v. W e s b y, 1 3 8 S. Ct. 5 7 7,
5 8 9 ( 2 0 1 8). I al s o a g r e e t h at a ri g ht i s cl e a rl y
e st a b li s h e d o nl y w h e n e v e r y r e a s o n a bl e offi c e r w o ul d
u n d e r st a n d t h at w h at t h e y a r e d oi n g i s u nl a wf ul. I d.
M y di s a g r e e m e nt wit h t h e m aj o rit y st e m s f r o m it s
a p pli c ati o n of t h at st a n d a r d t o t hi s r e c o r d. T h e
m a j o rit y a s k s, “w h et h e r e v e r y r e a s o n a bl e offi c e r
w o ul d k n o w t h at l a w e nf o r c e m e nt c a n n ot t a c kl e
s o m e o n e w h o di s o b e y e d a n o r d e r a n d t h e n u s e
a d diti o n al f o r c e if t h e y r e si st b ei n g h a n d c uff e d. ”
( Maj. O p. at 6.) W e s h o ul d i n st e a d b e a s ki n g w h et h e r
it viol at e s a cl e a rl y e st a bli s h e d c o n stit uti o n al ri g ht
f o r a n offi c e r t o t h r o w a p e r s o n t o t h e g r o u n d i n o r d e r
t o a r r e s t 1 t h at p e r s o n wit h o ut p r o b a bl e c a u s e . I
T h e m aj o rit y s a y s “it i s n’t o b vi o u s t h at t h e offi c e r s w e r e
e ff e ct u ati n g a n a r r e st ( r at h e r t h a n a n i n v e sti g at o r y st o p) w h e n
th e y t a c kl e d a n d h a n d c uff e d H o w s e” b e c a u s e, i n s o m e c a s e s,
o ffi c e r s m a y b e p e r mitt e d t o h a n d c uff a p e r s o n a s p a rt of a n
i n ve sti g at o r y st o p. ( M aj. O p. at 8, f n. 1.) C o nt r a r y t o t h e
m aj o rit y’ s s u g g e sti o n, h o w e v e r, I d o n ot r e a c h t h e c o n cl u si o n
th at Mi d d a u g h w a s a r r e sti n g H o w s e b e c a u s e h e h a n d c uff e d
hi m, a s I a g r e e t h at o u r p r e c e d e nt all o w s f o r t h e u s e of h a n d c uff s
d u ri n g s o m e i n v e sti g at o r y st o p s. R at h e r, I c o n cl u d e t h at
M i d d a u g h w a s a r r e sti n g H o w s e b e c a u s e of
Mi d d a u g h’ s
s t at e m e nt t h at H o w s e w a s “ g oi n g t o j ail.” ( R. 2 5 -3, P a g e I D 4 1 1.)
W e h a v e p r e vi o u sl y h el d t h at “[ T] h e r e m o v al of a s u s p e ct f r o m
th e s c e n e of t h e st o p g e n e r all y m a r k s t h e p oi nt at w hi c h th e
F o u rt h A m e n d m e nt d e m a n d s p r o b a bl e c a u s e.” C e nt a n ni v.
Ei g ht U n k n o w n O ffi c e r s, 1 5 F . 3 d 5 8 7, 5 9 1 ( 6t h Ci r. 1 9 9 4). H e r e,
1

A p p. 2 4
c o n cl u d e t h at t h e a n s w e r t o t h at q u e sti o n i s y e s o n
t h e b a si s t h at f oll o w s b el o w. A c c o r di n gl y, I w o ul d
d e n y Mi d d a u g h q u alifi e d i m m u nit y.
“T h e ri g ht t o b e f r e e of e x c e s si v e f o r c e, a s a
g e n e r al m att e r, i s cl e a rl y e st a bli s h e d. ” B r o w n , 7 7 9
F. 3 d at 4 1 9 ( citi n g Bl et z v. G ri b bl e , 6 4 1 F. 3 d 7 4 3, 7 5 6
( 6t h Ci r. 2 0 1 1)). T o d et e r mi n e w h et h e r f o r c e i s
e x c e s si v e, w e c o n si d e r t h e “o bj e cti v e r e a s o n a bl e n e s s ”
of t h e f o r c e “i n li g ht of t h e t ot alit y of t h e
ci r c u m st a n c e s c o nf r o nti n g t h e d ef e n d a nt s[.] ” B r o w n ,
7 7 9 F. 3 d at 4 1 8 ( citi n g B u r g e s s v. F i s c h e r, 7 3 5 F. 3 d
4 6 2, 4 7 2 ( 6t h Ci r. 2 0 1 3)). W h e n w e m a k e t hi s
o bj e cti v e i n q ui r y, w e l o o k at t h r e e i s s u e s: ( 1) t h e
s e v e rit y of t h e c ri m e t h at p r o m pt e d t h e offi c e r s t o
c o n d u ct t h e a r r e st; ( 2) t h e e xt e nt t o w hi c h t h e
s u s p e ct p o s e s a n i m m e di at e t h r e at t o t h e a r r e sti n g
offi c e r s; a n d ( 3) w h et h e r t h e s u s p e ct i s eit h e r a cti v el y
r e si sti n g a r r e st o r att e m pti n g t o e v a d e a r r e st b y
fl e ei n g. M a rti n v. Cit y of B r o a d vi e w H ei g ht s , 7 1 2
F. 3 d 9 5 1, 9 5 8 ( 6t h Ci r. 2 0 1 3) ( citi n g G r a h a m v.
C o n n o r , 4 9 0 U. S. 3 8 6, 3 9 6 ( 1 9 8 9)).
A n d cl e a rl y e st a bli s h e d l a w o n t h o s e f a ct o r s
c o m p el s t h e c o n cl u si o n t h at t h e f o r c e u s e d i n
t h r o wi n g H o w s e t o t h e g r o u n d w a s e x c e s si v e. Fi r st,
H o w s e di d n ot c o m mit ( a n d Mi d d a u g h h a d n o r e a s o n
t o b eli e v e h e h a d c o m mitt e d) a n y c ri m e. S e e, e. g. ,
P at ri zi v. H uff , 6 9 0 F. 3 d 4 5 9, 4 6 4 ( 6t h Ci r. 2 0 1 2)
( n oti n g F o u rt h A m e n d m e nt ri g ht t o b e f r e e f r o m
a r r e st wit h o ut p r o b a bl e c a u s e i s cl e a rl y e st a bli s h e d).
S e c o n d, Mi d d a u g h c a n n ot p oi nt t o e vi d e n c e t h at
Mi d d a u g h’ s i nt e nt t o r e m o v e H o w s e f r o m t h e s c e n e, a n d
s p e cifi c all y t o t a k e hi m t o j ail, d e m o n st r at e s t h at Mi d d a u g h w a s
att e m pti n g t o eff e ct u at e a n a r r e st.

A p p. 2 5
H o w s e p o s e d a n i m m e di at e t h r e at t o t h e s af et y of a n y
off i c e r. G ri ffit h v. C o bu r n , 4 7 3 F. 3 d 6 5 0, 6 5 9 ( 6t h Ci r.
2 0 0 7) ( o b s e r vi n g t h at “t h e ri g ht of p e o pl e w h o p o s e
n o s af et y ri s k t o t h e p oli c e t o b e f r e e f r o m g r at uit o u s
v i ol e n c e d u ri n g a r r e st” is cl e a rl y e st a bli s h e d). T hi r d,
H o w s e di d n ot r e si st o r att e m pt t o e v a d e a r r e st, a s
h e w a s im m e di at el y t h r o w n t o t h e g r o u n d b y
M i d d a u g h. H o w s e stiff e ni n g hi s a r m s t o r e si st b ei n g
h a n d c uff e d d o e s n ot c h a n g e t h e c o n cl u si o n o n t hi s
f a ct o r, a s h e di d n ot d o s o u ntil Mi d d a u g h h a d
a l r e a d y u s e d f o r c e t o t h r o w H o w s e t o t h e g r o u n d.
B a s e d o n t hi s a n al y sis, I w o ul d fi n d t h at Mi d d a u g h
v i ol at e d
H o w s e’s cl e a rl y
e st a bli s h e d
F o u rt h
A m e n d m e nt ri g ht t o b e f r e e f r o m e x c e s si v e f o r c e a n d
d e n y q u alifi e d i m m u nit y t o Mi d d a u g h o n H o w s e ’s
e x c e s si v e f o r c e cl ai m.
III.

M al i ci o u s P r o s e c u ti o n Cl ai m

T h e S u p r e m e C o u rt t ell s u s t h at t h e t o rt of
m a li ci o u s p r o s e c uti o n i s “e nti r el y di sti n ct ” f ro m t h e
t o rt of f al s e i m p ri s o n m e nt, w hi c h i n cl u d e s f al s e
a r r e st, a s t h e f o r m e r r e m e di e s t h e w r o n gf ul
in stit uti o n of l e g al p r o c e s s a n d t h e l att e r r e m e di e s
d et e nti o n i n t h e a b s e n c e of l e g al p r o c e s s. W all a c e v.
K a t o, 5 4 9 U. S. 3 8 4, 3 9 0 ( 2 0 0 7) (i nt e r n al cit ati o n a n d
q u ot ati o n
m a r k s o mitt e d). H e r e, t h e
m aj o rit y
d et e r mi n e s t h at t h e s e “e nti r el y di sti n ct ” c l ai m s m u st
n e c e s s a ril y b e a n al y z e d i n t h e e x a ct s a m e w a y,
d e s pit e m y ri a d r e a s o n s t o f oll o w t h e S u p r e m e C o u r t’s
d i r e cti o n a n d t r e at t h e m diff e r e ntl y. A n d it d o e s s o
s u a s p o nt e, a b s e nt t h e u r gi n g of a n y p a rt y, a n d
wi t h o ut t h e s u p p o rt of a si n gl e d e ci si o n of t hi s c o u rt
o r a n y ot h e r. I d e cli n e t o j oi n t h e m aj o rit y i n m a ki n g
t his l e a p t o n e w l e g al g r o u n d.

A p p. 2 6
W e h a v e n e v e r i n di c at e d t h at a m ali ci o u s
p r o s e c uti o n cl ai m f ail s s o l o n g a s t h e r e i s p r o b a bl e
c a u s e t o p r o s e c ut e o n o n e of s e v e r al c h a r g e s. I n e v e r y
p ri o r c a s e w h e r e t h e r e w e r e s o m e v ali d c h a r g e s o n
t h e i n di ct m e nt a n d w e w e r e t a s k e d t o c o n si d e r a
m ali ci o u s p r o s e c uti o n cl ai m o n a c q uitt e d c h a r g e s, w e
s e p a r at el y a n al y z e d
w h et h e r p r o b a bl e c a u s e
s u p p o rt e d t h e c h a r g e t h at w a s t h e s u bj e ct of t h e
cl ai m. I n B a r n e s v. W ri g ht , w e a d d r e s s e d a c a s e
w h e r e t h e pl ai ntiff w a s c o n vi ct e d o n t h e ot h e r
c h a r g e s f o r w hi c h h e w a s i n di ct e d b ut n o n et h el e s s
b r o u g ht a m ali ci o u s p r o s e c uti o n cl ai m c o n c e r ni n g t h e
c h a r g e o n w hi c h h e w a s a c q uitt e d. 4 4 9 F. 3 d 7 0 9, 7 1 3
( 6t h Ci r. 2 0 0 6). R at h e r t h a n di smi s s t h e m att e r
i m m e di at el y d u e t o t h e e xi st e n c e of v ali d c h a r g e s o n
t h e i n di ct m e nt, w e u n d e rt o o k a n a n al y si s of w h et h e r
p r o b a bl e c a u s e s u p p o rt e d t h e c h a r g e t h at w a s t h e
s u bj e ct of t h e m ali ci o u s p r o s e c uti o n cl ai m. I d. at
7 1 6 – 1 7. I n C o o k v. M c P h e r s o n , w e w er e si mil a rl y
c o nf r o nt e d wit h a c a s e w h e r e t h e pl ai ntiff h a d b e e n
c o n vi ct e d of all b ut o n e of t h e c h a r g e s h e f a c e d i n
st at e c o u rt. 2 7 3 F. A p p ’x 4 2 1, 4 2 2 ( 6t h Ci r. 2 0 0 8).
T h e r e, w e affi r m e d t h e di s mi s s al of t h e m ali ci o u s
p r o s e c uti o n cl ai m b e c a u s e t h e pl ai nti ff c o ul d n ot
p oi nt t o e vi d e n c e t h at t h e i n di ct m e nt r et u r n e d
a g ai n st hi m o n t h e c h all e n g e d c h a r g e h a d b e e n
o bt ai n e d b y f r a u d o r ot h e r p oli c e mi s c o n d u ct, n ot
b e c a u s e t h e pl ai ntiff h a d b e e n s e p a r at el y c o n vi ct e d
o n a diff e r e nt c h a r g e. I d. at 4 2 4.
A d diti o n all y, ot h e r ci r c uit c o u rt s
h ave
e x pli citl y r ej e ct e d t h e m aj o rit y ’s a p p r o a c h, a n d wit h
g o o d r e a s o n. T h e S e c o n d Ci r c uit h a s c o n cl u d e d t h at
a m ali ci o u s p r o s e c uti o n cl ai m c a n p r o c e e d e v e n w h e n
a s e p a r at e c h a r g e i s s u p p o rt e d b y p r o b a bl e c a u s e.
P o s r v. D o h e rt y , 9 4 4 F. 2 d 9 1, 1 0 0 ( 2 d Ci r. 1 9 9 1). T h at

A p p. 2 7
c o u rt o b s e r v e d t h at t h e m aj o rit y ’s a p p r o a c h w o ul d
a ll o w p r o s e c ut o r s t o t a c k o n a d diti o n al m e ritl e s s
c h a r g e s i n a n y c a s e w h e r e t h e y h a d p r o b a bl e c a u s e
t o p r o s e c ut e f or a si n g l e off e n s e. I d. T h e S e v e nt h
Ci r c uit h el d t h at “a m a li ci o u s p r o s e c uti o n c l ai m is
t re at e d diff e r e ntl y f r o m o n e f o r f al s e a r r e st[.] ”
H ol m e s v. Vill a g e of H off m a n E st at e , 5 1 1 F. 3 d 6 7 3,
6 8 2 ( 7t h Ci r. 2 0 0 7). It a ptl y n ot e d:
A n a r r e st e d i n di vi d u al i s n o m o r e
s ei z e d w h e n h e i s a r r e st e d o n t h r e e
g r o u n d s r at h e r t h a n o n e; a n d s o l o n g
a s t h e r e i s a r e a s o n a bl e b a si s f o r t h e
a r r e st, t h e s ei z u r e i s j u stifi e d o n t h at
b a si s e v e n if a n y ot h e r g r o u n d cit e d
f o r t h e a r r e st w a s fl a w e d. B ut w h e n it
c o m e s t o p r o s e c uti o n, t h e n u m b e r a n d
n a t u r e of t h e c h a r g e s m att e r s: t h e
a c c u s e d m u st i n v e sti g at e a n d p r e p a r e
a d ef e n s e t o e a c h c h a r g e, a n d a s t h e
li st of c h a r g e s l e n gt h e n s ( al o n g wit h
t h e s e nt e n c e t o w hi c h t h e a c c u s e d i s
e x p o s e d), t h e c o st a n d p s y c hi c t oll of
t h e p r o s e c uti o n o n t h e a c c u s e d
in c r e a s e.
I d. Ot h e r ci r c uit s h a v e j oi n e d t hi s c o n cl u si o n. S e e
J o h n s o n v. K n o r r , 4 7 7 F. 3 d 7 5, 8 3 ( 3 d Ci r. 2 0 0 7)
( de cli ni n g t o “e st a b li s h l e g al p r e c e d e nt of s u c h b r o a d
a p pli c ati o n t h at it w o ul d ‘in s ul at e ’ la w e nf o r c e m e nt
off i c e r s f r o m li a bilit y f o r m ali ci o u s p r o s e c uti o n i n all
c a s e s i n w hi c h t h e y h a d p r o b a bl e c a u s e f o r t h e a r r e st
of t h e pl ai ntiff o n a n y o n e c h a r g e ”); U b o h v. R e n o , 1 4 1
F . 3 d 1 0 0 0, 1 0 0 5 ( 1 1t h Ci r. 1 9 9 8) ( c o n cl u di n g t h at a
m a li ci o u s p r o s e c uti o n cl ai m c o ul d p r o c e e d e v e n w h e n

A p p. 2 8
t h e pl ai ntiff h a d al r e a d y b e e n c o n vi ct e d of ot h e r
c h a r g e s i n cl u d e d i n t h e s a m e i n di ct m e nt).
I j oi n t h e s e ci r c uit s a n d di s p ut e t h e m aj o rit y ’s
c o nt e nti o n t h at “t h e r e’s n o p ri n ci pl e d r e a s o n f o r
t r e ati n g a F o u rt h A m e n d m e nt m ali ci o u s -p r o s e c uti o n
cl ai m diff e r e ntl y t h a n a F o u rt h A m e n d m e nt f al s e
a r r e st cl ai m. ” (M aj. O p. at 9 – 1 0.) A s a p r a cti c al
m att e r, t h e p r e ci s e n at u r e of a p r o s e c uti o n m att e r s a
g r e at d e al t o t h e d ef e n d a nt w h o m u st g r a p pl e wit h
it s c o n s e q u e n c e s. A n d it i s a r e alit y t h at n o t w o
p r o s e c uti o n s s h a r e t h e e x a ct s a m e c h a r a ct e r. S o m e
p r o s e c uti o n s a r e f o r o n e c h a r g e, ot h e r s f o r s e v e r al.
S o m e p r o s e c uti o n s c a n r e s ult i n i n c a r c e r ati o n, ot h e r s
o nl y a fi n e. S o m e p r o s e c uti o n s a r e b a s e d o n a
st r ai g htf o r w a r d s et of f a ct s, ot h e r s a r e f a r m o r e
c o m pli c at e d. T h e a d diti o n of m o r e c h a r g e s t h a n
p r o b a bl e c a u s e c a n s u p p o rt t o a p r o s e c uti o n c h a n g e s
t h e n at u r e of t h e c a s e, d oi n g s o i n a w a y t h at
n e g ati v el y i m p a ct s t h e d ef e n d a nt.
W e c a n i m a gi n e, f o r e x a m pl e, t h at p utti n g o n
a d ef e n s e a g ai n st m ulti pl e c h a r g e s r e q ui r e s m o r e
r e s o u r c e s t h a n d ef e n di n g a g ai n st a si n gl e o n e. W e
mi g ht al s o n ot e t h at t h e s e v e rit y of t h e c ri m e s
c h a r g e d c o ul d h a v e p s y c h ol o gi c al i m p a ct s f o r t h e
d ef e n d a nt, a s w ell fi n a n ci al o n e s: it m a y i m p a ct t h e
a m o u nt t h e d ef e n d a nt m u st p o st i n b ail i n o r d e r t o
m ai nt ai n hi s li b e rt y. W e o u g ht f u rt h e r c o n si d e r t h at
a d ef e n d a nt f a ci n g a li st of c h a r g e s w h e r e o nl y a
si n gl e o n e i s s u p p o rt e d b y p r o b a bl e c a u s e w o ul d b e i n
a
m uc h
w o r s e n e g oti ati n g p o st u r e f o r pl e a
b a r g ai ni n g t h a n o n e w h o i s o nl y b a r g ai ni n g o v e r
t h e di s p o siti o n of a si n gl e c h a r g e. It f oll o w s t h at
t h e d a m a g e s s uff e r e d b y a d ef e n d a nt i n a n u nl a wf ul
p r o s e c uti o n w o ul d d e p e n d l a r g el y, if n ot e nti r el y, o n
w hi c h s p e cifi c c h a r g e s a r e at i s s u e i n t h at

A p p. 2 9
p r o s e c uti o n. I n st a r k c o nt r a st, a f al s e a r r e st, a s t h e
S e v e nt h Ci r c uit o b s e r v e d, d o e s n ot c h a n g e i n
c h a r a ct e r s im pl y b e c a u s e t h e offi c e r m a ki n g t h e
a r r e st b eli e v e d t h at s h e h a d p r o b a bl e c a u s e t o a r r e st
f o r m o r e c h a r g e s t h e n s h e di d i n r e alit y. S e e H ol m e s ,
5 1 1 F. 3 d at 6 8 2. I t h e r ef o r e b eli e v e t h at w e m u st
a d d r e s s t h e m e rit s of H o w s e ’s cl ai m t h at h e w a s
m a li ci o u sl y pr o s e c ut e d f o r a s s a ulti n g H o d o u s a n d
M i d d a u g h.
I f u rt h e r b eli e v e t h at w h e n w e r e a c h t hi s
c l ai m, s u m m a r y j u d g m e nt i s i n a p p r o p ri at e gi v e n t hi s
r e c o r d. P e r h a p s t h e m o st a r d e ntl y di s p ut e d f a ct i n
t his c a s e i s w h et h e r H o w s e st r u c k o r att e m pt e d t o
st r i k e t h e offic e r s a s t h e y c o nf r o nt e d hi m o n hi s o w n
p o r c h; t h e offi c e r s s a y h e di d, w hil e H o w s e s a y s h e
d i d n ot. Gi v e n t h at w e vi e w di s p ut e d f a ct s i n t h e li g ht
m o st f a v o r a bl e t o H o w s e, w e p r o c e e d o n t h e
a s s u m pti o n t h at H o w s e di d n ot st ri k e eit h e r offi c e r.
A m ali ci o u s p r o s e c uti o n cl ai m s u r vi v e s w h e r e a n
off i c e r k n o wi n gl y o r r e c kl e s sl y m a k e s a f al s e
st at e m e nt o r f al sifi e s o r f a b ri c at e s e vi d e n c e. Ki n g v.
H a r w o o d , 8 5 2 F. 3 d 5 6 8, 5 8 7 – 8 8 ( 6t h Ci r. 2 0 1 7).
A n at u r al c o r oll a r y of o u r a s s u m pti o n t h at H o w s e ’s
v e r si o n of t h e e v e nt s i s t h e t r u e o n e i s t h a t H o d o u s
and
Mi d d a u g h ’s st at e m e nt s t h at s p u r r e d t h e
p r o s e c uti o n of H o w s e f o r a s s a ult a r e f al s e. I w o ul d
t h e ref o r e h ol d t h at t h e m ali ci o u s p r o s e c uti o n cl ai m
s h o ul d p r o c e e d.
I V.

S t a t e L a w A s s a ul t a n d B a t t e r y Cl ai m

T h e m a j o rit y di s p o s e s of H o w s e’s st at e l a w
a s s a ult a n d b att e r y cl ai m o n t h e b a si s t h at H o w s e
h a s n ot c h all e n g e d t h e offi c e r s ’ st at ut o r y i m m u nit y
u n d e r O hi o l a w. O hi o R e v. C o d e 2 7 4 4. 0 3( A)( 6). A s

A p p. 3 0
wit h t h e e x c e s si v e f o r c e cl ai m, I fi n d t h at H o w s e h a s
a pl a u si bl e a s s a ult a n d b att e r y cl ai m a g ai n st
Mi d d a u g h, a n d I w o ul d all o w t h at cl ai m t o p r o c e e d.
O hi o R e v. C o d e § 2 7 4 4. 0 3( A)( 6)( b) p r o vi d e s
t h at t h e r e i s a n e x c e pti o n t o t h e g e n e r al i m m u nit y
t h e offi c e r s e nj o y u n d e r st at e l a w w h e n offi c e r s a ct
“wit h a m ali ci o u s p u r p o s e, i n b a d f ait h, o r i n a
w a nt o n o r r e c kl e s s m a n n e r. ” A g ai n vi e wi n g t h e f a ct s
i n t h e li g ht m o st f a v o r a bl e t o H o w s e, I b eli e v e t h at
H o w s e h a s m et hi s b u r d e n of o v e r c o mi n g t h e cl ai m of
i m m u nit y. B y all e gi n g t h at Mi d d a u g h t h r e w hi m t o
t h e g r o u n d i n o r d e r t o eff e ct a n a r r e st m a d e wit h o ut
p r o b a bl e c a u s e t h at H o w s e w a s n ot r e si sti n g, H o w s e
h a s c r e at e d a g e n ui n e i s s u e a s t o w h et h e r Mi d d a u g h
a ct e d “wit h m ali ci o u s p u r p o s e, i n b a d f ait h, o r i n a
w a nt o n o r r e c kl e s s m a n n e r ” a n d, t h u s, o v e r c o m e hi s
b u r d e n t o s h o w t h at Mi d d a u g h s h o ul d b e d e ni e d
st at ut o r y i m m u nit y. W e h a v e p r e vi o u sl y o b s e r v e d
t h at w h e n t h e r e i s a q u e sti o n a s t o w h et h e r a n offi c e r
a ct e d u n r e a s o n a bl y u n d e r t h e F o u rt h A m e n d m e nt,
t h e r e i s al s o a q u e sti o n a s t o w h et h e r h e a ct e d
r e c kl e s sl y u n d e r O hi o R e v. C o d e § 2 7 4 4. 0 3( A)( 6)( b).
S e e B u r g e s s , 7 3 5 F. 3 d at 4 8 0. A s I fi n d t h at H o w s e’s
e x c e s si v e f o r c e cl ai m s h o ul d p r o c e e d, I fi n d t h at t hi s
cl ai m s h o ul d a s w ell.
I r e s p e ctf ull y di s s e nt.

A p p. 3 1
A P P E N DI X B
I N T H E U NI T E D S T A T E S DI S T RI C T
C O U R T F O R T H E N O R T H E R N DI S T RI C T
O F O HI O E A S T E R N DI VI SI O N
S H A S E H O W S E,
Pl ai ntiff ,
v.
T H O M A S H O D O U S,
et al.,
D ef e n d a nt s .

C AS E N O .
1: 1 7 C V 1 7 1 4

J U D G E D O N AL D C .
N U G E NT
M E M O R A N D U M
O PI NI O N

A p p. 3 2
T hi s m att e r i s b ef o r e t h e C o u rt o n t h e
M oti o n s f o r S u m m a r y J u d g m e nt fil e d b y
D ef e n d a nt s,
T ho m as
Ho do us
and
B ri a n
Mi d d a u g h ( D o c k et # 2 5) a n d D ef e n d a nt, Cit y of
Cl e v el a n d ( D o c k et # 2 6).
I.

F a c t u al a n d P r o c e d u r al B a c k g r o u n d. 1

O n J ul y 2 8, 2 0 1 6, at a p p r o xi m at el y 9: 0 0
p . m., Pl ai ntiff, S h a s e H o w s e, w al k e d f r o m hi s
r e si d e n c e at 7 4 7 E a st 1 0 2 n d S t r e et, Cl e v el a n d, O hi o,
t o a n e a r b y c o n v e ni e n c e st o r e. ( Affi d a vit of S h a s e
H o w s e at P a r a g r a p h 4.) M r. H o w s e all e g e s t h at
d u ri n g hi s w al k t o t h e st o r e, h e w a s u nl a wf ull y
st o p p e d a n d f ri s k e d b y Cl e v el a n d P oli c e Offi c e r s,
w h o h a v e n e v e r b e e n i d e ntifi e d, b ut w a s r el e a s e d
wit h o ut b ei n g c h a r g e d wit h a n y c ri m e. H e t h e n
c o nti n u e d t o t h e st o r e a n d, f oll o wi n g hi s
p u r c h a s e, w al k e d b a c k h o m e. ( I d. at P a r a g r a p h s
5 -9.)
A r o u n d t h e s a m e ti m e, Cit y of Cl e v el a n d
P oli c e D et e cti v e s T h o m a s H o d o u s a n d B ri a n
Mi d d a u g h, m e m b e r s of t h e Cit y of Cl e v el a n d P oli c e
D e p a rt m e nt G a n g I m p a ct U nit ( “G I U ”), w e r e o n
p at r ol n e a r b y i n a n u n m a r k e d c a r. ( D e p o siti o n of
T h o m a s H o d o u s ( “ H o d o u s D e p o. ” ) at p. 2 6.)
D et e cti v e Mi d d a u g h w a s i n t h e f r o nt p a s s e n g e r
s e at a n d D et e cti v e H o d o u s w a s i n t h e b a c k
p a s s e n g e r s e at.
D et e cti v e C oli n
Gi nl e y
w as
T h e f a c t s a s st at e d i n t hi s M e m o r a n d u m O pi ni o n a n d O r d e r
a r e t a k e n f r o m t h e P a r ti e s’ s u b mi s si o n s. T h o s e m a t e ri al f a c t s
t h at a r e c o n t r o v e r t e d a n d s u p p o r t e d b y d e p o si ti o n t e sti m o n y,
affi d a vi t, o r o t h e r e vi d e n c e a r e st at e d i n t h e li g h t m o st
f a v o r a bl e t o t h e n o n -m o vi n g P a r t y.

1

A p p. 3 3
d ri vi n g, b ut i s n ot n a m e d a s a D ef e n d a nt i n t hi s
l a w s uit ( I d. at p p. 2 6 a n d 1 0 1.) D ef e n d a nt s H o d o u s
a n d Mi d d a u g h t e st ifi e d d u ri n g d e p o siti o n t h at t hi s
w a s a hi g h c ri m e a r e a a n d t h at o n t h e e v e ni n g i n
q u e sti o n, t h e y w e r e p at r olli n g a n o n g oi n g vi gil
w h e r e p e o pl e r o uti n el y c o n g r e g at e d a n d w e a p o n s
a n d ot h e r c o nt r a b a n d h a d b e e n r e c o v e r e d i n t h e
p a st. D et e cti v e H o d o u s e x pl ai n e d t h at a vi gil i s a
m e m o ri al s et u p a t t h e l o c ati o n of a n e a rli e r
h o mi ci d e a n d, t h at o n t hi s ni g ht, p e o pl e w e r e
h a n gi n g a r o u n d t h e m e m o ri al a n d l oit e ri n g n e a r
t h e st r e et. ( I d. at p. 2 4.)
T h e P a rti e s di s a g r e e a s t o w h et h e r t h e
D et e cti v e s
a ct e d
r e a s o n a bl y
u n d er
t he
ci r c u m st a n c e s. H o w e v e r, a s s et f o rt h b el o w, t h e
P a rti e s ’ r e cit ati o n s of t h e f a ct s i n t hi s c a s e a r e
n e a rl y i d e nti c al.
R el e v a n t F a c t s a s R e c o u n t e d b y M r.
H o ws e .
I n hi s Affi d a vit, M r. H o w s e st at e s t h at a s h e
w a s w al ki n g h o m e f r o m t h e c o n v e ni e n c e st o r e, h e
st a rt e d t o l o o k i n hi s p o c k et f o r hi s d o o r k e y. M r.
H o w s e w a s o n t h e p h o n e wit h hi s m ot h e r at t h e
ti m e a n d c o nti n u e d t al ki n g t o h e r a s h e cli m b e d t h e
p o r c h st e p s t o hi s f r o nt d o o r. ( H o w s e Affi d a vit at
P a r a g r a p h s 1 2 -1 3.) M r. H o w s e st at e s t h at a s h e
w al k e d a c r o s s t h e p o r c h, a m a n i n a c a r o n E. 1 0 2 n d
( D et e cti v e Mi d d a u g h) s ai d s o m et hi n g li k e, “I s t hi s
y o u r h o u s e ? ” a n d M r. H o w s e “ r e s p o n d e d b y s a yi n g
li k e, ‘Y e s, t hi s i s m y h o u s e, I li v e h e r e. ”‘ ( I d. at
P a r a g r a p h s 1 3 -1 4.) H e n oti c e d t h e m a n i n t h e c a r

A p p. 3 4
w h o h a d q u e sti o n e d hi m s a y s o m et hi n g t o t h e
d ri v e r a n d t h e c a r b a c k e d u p. T h e m a n i n t h e c a r
a g ai n a s k e d M r. H o w s e if t h at w a s hi s h o u s e a n d
h e r e s p o n d e d b y s a yi n g s o m et hi n g li k e “ Y e s, w h at
t h e f u c k ? ” o r “y e s. t hi s i s m y h o m e. W h at t h e f u c k ? ”
M r.
H o w s e st at e s t h at t h e m a n i n t h e c a r
“r e s p o n d e d b y s a yi n g s o m et hi n g a b o ut, ‘Y o u h a v e
a s m a rt m o ut h a n d a b a d attit u d e ”’ a n d h e
c o nti n u e d t o m a k e r ef e r e n c e t o M r. H o w s e ’s “s m a rt
m o ut h. ” ( I d. at P a r a g r a p h s 1 5-1 8.)
M r. H o w s e t e stifi e d d u ri n g d e p o siti o n t h at
D et e cti v e Mi d d a u g h g ot o ut of t h e c a r a n d c o nti n u e d
t o a s k if M r. H o w s e li v e d t h e r e. M r. H o w s e all e g e s
t h at D et e cti v e Mi d d a u g h t h e n t ol d hi m t o p ut hi s
h a n d s b e hi n d hi s b a c k a n d t h at M r. H o w s e w a s
“g oi n g t o j ail, ” t o w hi c h h e r e s p o n d e d “n o, I li v e h e r e.
I a m g oi n g h o m e. I a m n ot d oi n g a n yt hi n g. ” ( Ho w s e
M r. H o w s e t e stifi e d d u ri n g
D e p o. at p. 5 0.)
d e p o siti o n t h at h e r ef u s e d t o p ut hi s h a n d s b e hi n d
hi s b a c k. ( I d. at p p. 5 2 -5 3.) M r. H o w s e st a t e s i n hi s
Affi d a vit, “T h e m e n n e v e r i d e ntifi e d t h e m s el v e s a s
p oli c e offi c e r s b ut r a n u p t h e st e p s t o m y p o r c h,
g r a b b e d m e a n d t h r e w m e t o t h e p o r c h fl o o r w hil e
I k e pt y elli n g t h at, ‘T hi s i s m y h o u s e, I di d n ’t d o
a n yt hi n g. ”’ ( H o w s e Affi d a vit at P a r a g r a p h s 2 0- 2 1.)
D u ri n g hi s D e p o sit i o n, M r. H o w s e t e stifi e d t h at
a n ot h e r P oli c e Offi c e r ( D et e cti v e H o d o u s) h el p e d
D et e cti v e Mi d d a u g h g r a b hi m a n d p ut hi m t o t h e
g r o u n d. ( H o w s e D e p o. at p. 5 1.)
M r. H o w s e st at e s h e w a s “sl a m m e d t o t h e
fl o o r of t h e p o r c h a n d o n e of t h e m e n w h o I t h e n
r e ali z e d w a s a p oli c e offi c e r w a s o n t o p of m e
y elli n g. ” ( H o w s e Affi d a vit at P a r a g r a p h 2 2.) M r.

A p p. 3 5
H o w s e t e stifi e d d u ri n g d e p o siti o n t h at w h e n h e
w a s o n t h e g r o u n d, h e r e si st e d t h e D et e cti v e s ’
eff o rt s t o h a n d c uff hi m b y “stiff e ni n g u p ” hi s b o d y
a n d t h at h e k e pt t r yi n g t o t ell t h e D e t e c ti v e s t h a t
h e li v e d t h e r e. ( H o w s e D e p o. a t p p. 5 3 -5 4.) M r.
H o w s e d e ni e s t r yi n g t o hi t o r p u s h t h e
D et e c ti v e s. M r. H o w s e al 1 e g e s t h a t hi s h e a d w a s
sl a m m e d d o w n o n t o t h e p o r c h w h e n h e t ri e d t o
l o o k u p w h e n h e h e a r d hi s m o t h e r ’s (Ni c h ol a s a
S a n t a ri) v oi c e, w h o h e t e s tifi e d a s k e d, “ W h a t a r e
y o u all d oi n g ? T h a t ’s m y s o n. ” ( I d. a t p. 5 1.) M r.
H o w s e al 1 e g e s D e t e cti v e Mi d d a u g h hi t hi m
t wi c e o n t h e n e c k wi t h hi s f o r e a r m w hil e h e w a s
o n t h e g r o u n d. ( I d.) I n h e r Affi d a vi t, M s. S a n t a ri
s t a t e s, “I c o ul d s e e t h a t o n e of t h e m e n s t r u c k m y
s o n wi t h a cl o s e d fi st w hil e h e w a s f a c e d o w n
w hi c h f o r c e d hi s h e a d t o s t ri k e t h e p o r c h.
( Affi d a vi t
of Ni c h ol a s a
S a n t a ri ( “ S a n t a ri
Affi d a vi t ” ) a t P a r a g r a p h 1 2.) E v e n t u all y, M r.
H o w s e w a s h a n d c uff e d, a r r e s t e d a n d pl a c e d i n
t h e r e a r s e a t of t h e p oli c e c a r. H e w a s e x t r e m el y
u p s e t a n d hi s m o t h e r t ri e d t o c al m hi m d o w n.
( H o w s e Affi d a vi t a t P a r a g r a p h s 2 4 -2 6.) M r.
H o w s e t e s tifi e d d u ri n g d e p o si ti o n t h a t h e h a d
i d e n tifi c a ti o n i n hi s p o c k e t w hi c h s h o w e d hi s
a d d r e s s, b u t t h e D e t e cti v e s n e v e r r e q u e s t e d i t
a n d h e n e v e r off e r e d. ( H o w s e D e p o. a t p. 5 2.)
M r. H o w s e r ef u s e d m e di c al t r e a t m e n t a t
t h e s c e n e. M r. H o w s e w a s t r a n s p o rt e d t o t h e
Ci t y of Cl e v el a n d J ail a t t h e J u s ti c e C e n t e r,
pl a c e d i n a h ol di n g c ell, a n d r e m ai n e d i n j ail o v e r
t h e w e e k e n d u n til hi s b o n d w a s p o s t e d. M r.
H o w s e di d n o t r e c ei v e a n y m e di c a l t r e a t m e n t a s

A p p. 3 6
a r e s ul t of t h e e v e n t s i n q u e s ti o n.
R el e v a n t F a c t s a s R e c o u n t e d b y
D ef e n d a n t s.
A s t h e D e t e c ti v e s d r o v e p a s t 7 4 7 E a s t
1 0 2 n d S t r e e t, D e t e c ti v e Mi d d a u g h n o ti c e d M r.
H o w s e o n t h e f r o n t p o r c h of a h o u s e, n e a r t h e
f r o n t d o o r. D e t e cti v e Gi nl e y s t o p p e d t h e c a r a n d
b a c k e d u p. M r. H o w s e w a s t u r n e d a w a y f r o m t h e
p oli c e c a r. ( H o d o u s D e p o. a t p p. 4 4.) D et e c ti v e
H o d o u s t e s tifi e d d u ri n g d e p o si ti o n t h a t M r.
H o w s e “ a p p e a r e d n e r v o u s w h e n [t h ei r] p r e s e n c e
b e c a m e k n o w n t o hi m; ” t h a t
M r.
Ho wse
“i m m e di a t el y t u r n e d a w a y f r o m [ t h e m], ki n d of
gl a n c e d b a c k a n d f o rt h; ” a n d, t h at M r. H o w s e
“st a rt e d r e a c hi n g i n t o w a r d s n e a r t h e f r o nt of hi s
b o d y n e a r t h e f r o nt d o o r a n d D et e cti v e H o d o u s
c o ul d n ot t ell w h at M r. H o w s e w a s d oi n g. ” ( H o d o u s
D e p o. at p p. 4 9 -5 5.) At t h at ti m e, t h e D et e cti v e s
di d n ot k n o w M r. H o w s e li v e d at 7 4 7 E a st 1 0 2 n d
St r e et. D et e cti v e Mi d d a u g h t e stifi e d t h a t b eli e v e d
t h e h o u s e t o b e v a c a n t b e c a u s e t h e h o u s e w a s d a r k;
t h e r e w e r e b a r s o n t h e d o o r; a n d, a g a r b a g e c a n
wit h t w o b o a r d s bl o c k e d t h e d ri v e w a y. D et e cti v e
Mi d d a u g h t e stifi e d t h at i n t h e d a r k it al s o l o o k e d
a s t h o u g h t h e d o o r s w e r e b o a r d e d u p, e v e n t h o u g h
t h e y a ct u all y w e r e n ot. D et e cti v e s H o d o u s a n d
Mi d d a u g h t e stifi e d d u ri n g d e p o siti o n t h at M r.
H o w s e li n g e r e d o n t h e f r o nt p o r c h l o n g e r t h a n
n o r m al wit h o ut e n t e ri n g a n d gl a n c e d a r o u n d
n e r v o u sl y a s t h e y d r o v e p a st. ( D e p o siti o n of B ri a n
Mi d d a u g h ( “ Mi d d a u g h D e p o siti o n ” ) a t p. 3 6;

A p p. 3 7
H o d o u s D e p o. at p p. 4 9 -5 0.)
D et e cti v e Mi d d a u g h a s k e d M r. H o w s e if h e
li v e d at 7 4 7 E a st 1 0 2 n d . M r. H o w s e r e s p o n d e d y e s
a n d t u r n e d b a c k a r o u n d. T h e D et e cti v e s g ot o ut of
t h e c a r a n d w al k e d u p t h e st e p s o nt o t h e p o r c h
w h e r e M r. H o w s e w a s st a n di n g t o i n v e sti g at e
f u rt h e r. 2 D et e cti v e H o d o u s t e stifi e d t h at D et e cti v e
Mi d d a u g h a s k e d M r. H o w s e if h e w a s t r yi n g t o
b r e a k i nt o t h e h o u s e a n d M r. H o w s e t u r n e d a n d
s ai d s o m et hi n g t o t h e eff e ct of “Y e s, t hi s i s m y
h o m e. W h at t h e f u c k ? ” o r “F u c k y o u. L e a v e m e t h e
f u c k al o n e.” ( H o d o u s D e p o. at p. 6 4.) D et e cti v e
Mi d d a u g h t e stifi e d d u ri n g d e p o siti o n t h at M r.
H o w s e t u r n e d a r o u n d wit h cl e n c h e d fi st s a n d
D et e cti v e Mi d d a u g h t ol d hi m t o p ut hi s h a n d s i n
t h e ai r, st ati n g t h at t h e b eli e v e d M r. H o w s e
w a nt e d t o fi g ht hi m. ( Mi d d a u g h D e p o. at p. 5 3.) M r.
H o w s e di d n ot c o m pl y. ( H o d o u s D e p o. at p. 7 1.)
D et e cti v e H o d o u s t e stifi e d t h at M r. H o w s e “st a rt e d
m oti o ni n g t o w a r d s hi s p o c k et s. ” ( I d. at p. 8 0.)
Aft e r h e r ef u s e d o r d e r s t o k e e p hi s h a n d s u p,
D et e cti v e Mi d d a u g h g r a b b e d M r. H o w s e ’s l eft a r m
a n d D et e cti v e H o d o u s g r a b b e d M r. H o w s e ’s ri g ht
a r m. ( H o d o u s D e p o. at p. 8 2.) D et e cti v e Mi d d a u g h
t e stifi e d t h at M r. H o w s e w a s “g r a b bi n g ” at t h e m
a n d “ ri p pi n g ” o n t h e m a n d t h at t h e y “j u st w a nt e d
hi m t o c al m d o w n. ” D et e cti v e H o d o u s t e stifi e d t h at
w h e n h e g r a b b e d M r. H o w s e ’s ri g ht a r m, M r.
H o w s e p ull e d hi s a r m a w a y a n d st r u c k hi m i n t h e
O t h e r Offi c e r s w e r e at t h e s c e n e b u t, a si d e f r o m S e r g e a n t
M att h e w P u t n a m w h o a s si st e d D e t e c ti v e s H o d o u s a n d
Mi d d a u g h, t h e o t h e r offi c e r s w e r e o t h e r wi s e u ni n v ol v e d.

2

A p p. 3 8
c h e st wit h hi s ri g h t o p e n h a n d. ( H o d o u s D e p o. at
p. 8 0.) D et e cti v e H o d o u s “att e m pt e d t o r e g ai n
c o nt r ol of [ M r. H o w s e ’s] h a n d s ” a s M r. H o w s e
b r o k e D et e cti v e H o d o u s ’s “ fl a s hli g ht h ol d e r off of
hi s v e st t r yi n g t o p ull [ D e t e cti v e H o d o u s] t o t h e
g r o u n d. ” ( H o d o u s D e p o. at p p. 8 2-8 3.) D et e cti v e
H o d o u s st at e d, “h e p ull e d a w a y f r o m u s a n d st r u c k
u s b ot h. ” ( H o d o u s D e p o. at p. 8 4.) D et e cti v e
H o d o u s c o nti n u e d, “ W e w e r e j u st g oi n g i n ci r cl e s
t r yi n g t o g et hi s h a n d s a n d h e w a s j u st fl aili n g hi s
a r m s a r o u n d. A n d t h e n D et e cti v e Mi d d a u g h t h e n
t o o k hi m t o t h e g r o u n d. ( H o d o u s D e p o. at p. 8 3.)
D et e cti v e Mi d d a u g h t e stifi e d, “I t h o u g h t I
c o ul d r e s ol v e it e a si e r t h a n t h at, b ut w h e n h e
st a rt s p ulli n g m y h a n d c uff c a s e off a n d m y
fl a s hli g ht a n d h e ’s fl aili n g a r o u n d, I h a d n o c h oi c e
at t h at p oi nt, I d e ci d e d, ‘M a n, l et ’s j u st d o a l e g
s w e e p, t a k e hi m t o t h e g r o u n d, p ut hi m i n
h a n d c uff s, a n d b e d o n e wit h it. ’” ( Mi d d a u g h D e p o.
at p p. 5 9 -6 0.) H e t e stifi e d, “ [ W] e’r e lit e r all y h ol di n g
hi m w hil e h e ’s fl aili n g a n d p u s hi n g a n d j e r ki n g
a n d s c r e a mi n g f o r I d o n ’t— I c a n ’t gi v e y o u e x a ct
s e c o n d s, b ut I m e a n, w e w ait e d a s l o n g a s I f elt li k e
w e c o ul d b ef o r e w e h a d — p e r s o n all y, I di d, I m a d e
t h at d e ci si o n t o s w e e p hi s l e g, b ef o r e w e h a d t o
t a k e hi m t o t h e g r o u n d. ” ( I d. at p. 9 9.) D et e cti v e
Mi d d a u g h t h e n di d a “l e g s w e e p” a n d M r. H o w s e
w a s t a k e n t o t h e g r o u n d a n d h a n d c uff e d. ( I d. at p p.
5 4 -6 0.) D et e cti v e Mi d d a u g h t e stifi e d, “S o I j u st f e el
li k e it’s j u st r e all y i m p o rt a nt t h at y o u k n o w t h at
w e di d n ’t j u st w al k u p t h e r e, g r a b t hi s ki d, a n d
sl a m hi m o n t h e g r o u n d. W e w ait e d a s l o n g a s
h u m a nl y p o s si bl e b ef o r e h e w e nt t o t h e g r o u n d. W e ’r e

A p p. 3 9
h ol di n g hi s a r m s a n d I f e el li k e t h at d el a y i s r e all y
im p o rt a nt t o j u st s h o w t h at li st e n, I ’m n ot t r yi n g t o
b e a b a d g u y h e r e, b ut I ’m s c a r e d of g u n s. I w a nt t o
g o h o m e. ” ( I d. at p. 1 0 0.)
D et e c ti v e
Mi d d a u g h t e stifi e d t h at t h e y
“w e r e t r yi n g t o u s e t h e a b s ol ut e mi ni m al a m o u nt
of f o r c e t o g et t hi s ki d t o j u st c o m pl y wit h w e ’r e
d oi n g. All w e w a nt e d t o d o i s c h e c k a n d m a k e s u r e
h e li v e s t h e r e a n d t h at h e d o e s n ’t h a v e a w e a p o n. ”
( I d. at p. 5.) D et e cti v e H o d o u s t e stifi e d, “I d o n ot
r e c all if Mi d d a u g h w a s o n t o p of hi m. I k n o w t h at
w e w e r e t r yi n g t o f r e e hi s a r m s f r o m u n d e r n e at h
hi s b o d y. At t h at ti m e, h e h a d b u ri e d hi s h a n d s
u n d e r n e at h hi s c h e st a n d w a s ki c ki n g hi s f e et n ot
all o wi n g u s t o pl a c e hi m i n h a n d c uff s. ( H o d o u s
D e p o. at p. 8 5.) M r. H o w s e ’s m ot h e r, M s. S a nt a ri,
a r ri v e d o n t h e s c e n e a n d a s k e d, “W h at ’s g oi n g o n
h e r e ? ” a n d c o nfi r m e d t h at s h e a n d M r. H o w s e li v e d
i n t h e h o u s e. ( Mi d d a u g h D e p o. at p. 6 0; H o d o u s
D e p o. at p. 8 6.) D et e cti v e Mi d d a u g h pl a c e d M r.
H o w s e i n t h e p oli c e c a r. H e w a s s w e a ri n g a n d
u p s et. H e w a s ulti m at el y t r a n s p o rt e d t o t h e p oli c e
d e p a rt m e nt a n d b o o k e d.
U s e of F o r c e R e p o r t s.
“U s e of F o r c e R e p o rt s ” w e r e c o m pl et e d b y
D et e cti v e s H o d o u s a n d Mi d d a u g h, a s w ell a s
S e r g e a nt M att h e w P ut n a m, w h o w a s al s o o n t h e
s c e n e a n d a s si st e d h a n d c uffi n g
M r.
H o w s e.
S e r g e a nt
D o n al d R o bi n s o n
w a s a s si g n e d t o
i n v e sti g at e.
D et e cti v e H o d o u s st at e d a s f oll o w s wit h r e g a r d

A p p. 4 0
t o th e u s e of f o r c e a g ai n st M r. H o w s e:
O n J ul y 2 8, 2 0 1 6, at a p p r o xi m at el y
2 1 5 5 h r s., a n d at t h e lo c ati o n of 7 4 7 E.
1 0 2 St., I a s si st e d D et e cti v e Mi d d a u g h
# 2 1 2 8, wit h c o nf r o n ti n g a m al e, l at e r
i d e ntifi e d a s S h a s e H o w s e, w h o w a s o n
t h e f r o nt p o r c h of t h e a b o v e l o c ati o n.
H o w s e b e c a m e e xt r e m el y i r at e a n d
w o ul d n ot li st e n t o v e r b al c o m m a n d s,
a s h e m oti o n e d hi s h a n d s t o w a r d s hi s
p o c k et s. It w a s at t hi s ti m e I g r a b b e d
H o w s e ’s ri g ht a r m, t o k e e p hi m f r o m
g oi n g i nt o hi s p o c k et. H o w s e t h e n
p ull e d hi s ri g ht a r m a w a y a n d
a tt e m pt e d t o p u s h
m e b a c k w a r d s,
st r i ki n g m e i n t h e c h e st wit h a n o p e n e d
r i g ht h a n d. I t h e n g r a b b e d a n d
a tt e m pt e d t o c o nt r ol H o w s e ’s ri g ht a r m
a s h e att e m pt e d t o st ri k e m e f urt h e r.
D u r i n g t h e st r u g gl e, H o w s e g r a b b e d a n d
r i p p e d t h e fl a s hli g ht off of m y t a cti c al
v e st. H o w s e w a s t h e n t a k e n t o t h e
g r o u n d b y D et e cti v e Mi d d a u g h, w h e r e I
a s si st e d i n h a n d c uffi n g hi m.
( D o c k et # 3 7-2.) R e p o rti n g t y p e s of r e si st a n c e u s e d
b y M r. H o w s e a g ai n st hi m, D et e cti v e H o d o u s
li st e d, “P u s h; ” “F e et/ L e g Ki c k/ K n e e; ” “ O p e n H a n d
St ri k e; ’ ‘“P ull; ” a n d, “R e si st H a n d c uffi n g. ” ( I d.)
R e p o rti n g t h e f o r c e u s e d a g ai n st M r. H o w s e,
D et e cti v e
Ho do us
st at e d,
“C o nt r ol
H ol d R e st r ai nt. ” ( I d.)

A p p. 4 1
D et e cti v e Mi d d a u g h st at e d a s f oll o w s i n hi s
U s e of F o r c e R e p o rt:
O n J ul y 2 7, 2 0 1 6, at 2 1 5 5 h r s., at
7 4 7 E. 1 0 2 w hil e a s si g n e d t o t h e G a n g
I m p a ct
U nit i n
co m pa ny
wit h
D et e cti v e H o d o u s # 2 4 5 1, D et e cti v e
Gi nl e y # 2 2 2 2, D et e cti v e M o bl e y # 4 7,
D et e cti v e S k e mi vit z # 2 2 4 9, a n d u n d e r
t h e di r e ct s u p e r vi si o n of S gt. P ut n a m
w e h a d t h e o c c a si o n t o a r r e st S h a s e
H o w s e f o r A s s a ult o n a P. O. T h e
f oll o wi n g a r e t h e f a ct s of t h e a r r e st.
O n t hi s d a y d et e cti v e s w e r e
a s si g n e d t o t h e fift h di st ri ct i n
c o n n e cti o n wit h a r e c e nt u pti c k i n
f el o ni o u s a s s a ult s h o oti n g s. D et e cti v e s
w e r e p at r olli n g t h e a r e a of E. 1 0 2 j u st
s o ut h of St. Cl ai r w h e r e a vi s u al w a s
b ei n g h el d f o r s o m e o n e w h o h a d b e e n
m u r d e r e d. I n t h e p a st G I U D et e cti v e s
h a v e p at r oll e d vi s u al s of
m ur d er
vi cti m s b e c a u s e p e o pl e a r e k n o w n t o
c a r r y fi r e a r m s at t h e s e vi s u al s i n
c o n n e cti o n
wit h
gang
r e l at e d
s h o oti n g s. G I U d et e cti v e s h a v e al s o
i n v e sti g at e d d ri v e b y s h o oti n g s at
vi s u al s. A s r e c e ntl y a s y e st e r d a y G I U
D et e cti v e s r e c o v e r e d
a n ill e g all y
p o s s e s s e d fi r e a r m f r o m a vi s u al.
Aft e r p a s si n g t h e vi s u al N /B w e
p a s s e d t h e a d d r e s s of 7 4 7 E. 1 0 2 a n d
o bs er v e d a
m al e, ( S h a s e
H o w s e),

A p p. 4 2
st a n di n g o n t h e f r o nt p o r c h. At t hi s
ti m e I b eli e v e d t h e h o u s e w a s v a c a nt,
t h e d ri v e w a y h a d b o a r d s bl o c ki n g it,
a n d I b eli e v e d t h e d o o r s w e r e b o a r d e d
u p.
W hil e p a s si n g,
Ho wse loo ke d
t o w ar ds o ur c ar a n d t h e n l o o k e d a w a y
q ui c kl y a s if w e st a rtl e d hi m. W e t h e n
st o p p e d a n d r e v e r s e d a n d
Ho wse
b e g a n l o o ki n g b a c k a n d f o rt h. B a s e d o n
t r ai ni n g
a n d e x p e ri e n c e t hi s i s
c o m m o nl y w h at a p e r s o n d o e s ri g ht
b ef o r e h e o r s h e r u n f r o m p oli c e. It
a p p e a r e d a s t h o u g h h e w a s s c a n ni n g
t h e a r e a f o r a e xit r o ut e. D et e cti v e
H o d o u s a n d I e xit e d t h e D et e cti v e c a r
a n d I a s k e d H o w s e if h e li v e d t h e r e. H e
r e s p o n d e d t h at h e di d, a n d l o o k e d
a w a y b a c k t o w a r d s t h e d o o r, h e
a p p e a r e d t o h a v e hi s h a n d s o n t h e d o o r
b ut w a s n ot o p e ni n g it. At t hi s p oi nt I
w a s i n f e a r t h at H o w s e w a s eit h e r
t r yi n g t o b r e a k i nt o t hi s h o u s e, o r
c o n c e al s o m et hi n g i n f r o nt of hi s
p e r s o n. I t h e n a s k e d hi m if h e w a s
b r e a ki n g i n a n d h e st at e d “ f u c k”, a n d
t h e n s o m et hi n g el s e t h at I c o ul d n ot
u n d e r st a n d. A s I a p p r o a c h e d I a s k e d
hi m w h at h e s ai d a n d h e t u r n e d
a r o u n d a n d di d n ot r e s p o n d.
He
i m m e di at el y t o o k a fi g hti n g st a n c e a n d
cl e n c h e d hi s fi st. I t h e n t ol d hi m t o p ut
hi s h a n d s u p a n d h e r ef u s e d a n d
m oti o n e d hi s h a n d s d o w n t o w a r d s hi s

A p p. 4 3
p o c k et s. I t h e n g r a b b e d hi s l eft h a n d
a n d D et. H o d o u s g r a b b e d hi s r i g ht a r m
f e a ri n g h e m a y b e g r a b bi n g f o r a
w e a p o n. H e t h e n p u s h e d D et e cti v e
H o d o u s a n d I si m ult a n e o u sl y, st ri ki n g
m e wit h hi s l eft h a n d i n t h e c h e st, a n d
D et. H o d o u s wit h hi s ri g ht h a n d i n t h e
c h e st.
D et e cti v e
Ho do us
and I
att e m pt e d t o c o nt r ol H o w s e b y h ol d i n g
hi s a r m s b ut h e b e g a n g r a b bi n g o u r
v e st s, a n d ki c ki n g hi s l e g s. H o w s e
ri p p e d m y h a n d c uff c a s e off m y v e st
a n d ri p p e d m y fl a s hli g ht off m y v e st
wit h hi s l eft h a n d w hil e att e m pti n g t o
p ull m e d o w n. H e al s o p ull e d D et.
H o d o u s ’ fl a s hli g ht off hi s v e st w hile h e
w a s t r yi n g att e m pti n g t o p ull D et.
H o d o u s t o t h e g r o u n d. At t hi s p oi nt I
p e rf o r m e d a l e g s w e e p o n H o w s e a n d
u s e d b al a n c e di s pl a c e m e nt t o t a k e hi m
t o t h e g r o u n d. H e t h e n w e nt t o hi s
st o m a c h a n d c o nti n u e d ki c ki n g hi s l e g s
a n d h ol di n g hi s a r m s u n d e r hi s c h e st.
W hil e gi vi n g r e p e a t e d c o m m a n d s t o
p ut hi s a r m s b e hi n d hi s b a c k a n d st o p
di s pl a c e m e nt t o t a k e hi m t o t h e
g r o u n d. H e t h e n w e nt t o hi s st o m a c h
a n d c o nti n u e d ki c ki n g hi s l e g s a n d
h ol di n g hi s a r m s u n d e r hi s c h e st.
W hil e gi vi n g r e p e a t e d c o m m a n d s t o
p ut hi s a r m s b e hi n d hi s b a c k a n d st o p
ki c ki n g H o w s e r ef u s e d a n d c o nti n u e d
m a ki n g g r o wli n g n oi s e s. At t hi s p oi nt

A p p. 4 4
S gt. P ut n a m, D et. H o d o u s a n d I p ull e d
H o w s e ’s a r m s b e hi n d hi s b a c k a n d
pl a c e d hi m i n h a n d c uff s. H e w a s t h e n
e s c o rt e d t o t h e r e a r of t h e D et e cti v e c a r
w h e r e S gt. P ut n a m a s k e d H o w s e if h e
w a s o k, o r if h e n e e d e d E M S. H o w s e
r e s p o n d e d h e di d n ot.
W hil e t hi s w a s t a ki n g pl a c e
H o w s e ’s m ot h e r, Ni c h ol a s a S a nt a ri,
a r ri v e d o n s c e n e. S h e t ol d u s t h at
H o w s e h a d j u st m o v e d i n wit h h e r at
t hi s a d d r e s s a n d s h e h a s h a d s e v e r al
p r o bl e m s wit h hi m a n d hi s t e m p e r
i s s u e s. S h e st at e d t h at h e w a s i n
s e v e r al p s y c hi at ri c p r o g r a m s i n s c h o ol
g r o wi n g u p b ut h a s n ot b e e n t r e at e d
si n c e h e w a s 1 8 y e a r s of a g e b e c a u s e at
t h at a g e it b e c a m e o pti o n al a n d n ot
m a n d at o r y.
S a nt a ri
c o ul d
n ot
r e m e m b er
w h at
Ho wse h a d bee n
di a g n o s e d wit h.
( D o c k et # 3 7-4.)
Wi t h r e g a r d t o t h e t y p e of
r e si st a n c e M r. H o w s e u s e d a g ai n st hi m, D et e cti v e
Mi d d a u g h
li st e d,
“F e et/ L e g
Ki c k/ K n e e; ”
“B o d y w ei g ht; ”
“O p e n
Hand
St ri k e; ”
“P u n c h/ El b o w; ” a n d, “P u s h. ” Wit h r e g a r d t o t h e
t y p e of f o r c e h e u s e d a g ai n st M r. H o w s e, D et e cti v e
Mi d d a u g h
li st e d,
“F e et/ L e g
S w e e p; ”
“T a c kli n g/ T a k e d o w n; ”
a n d,
“ C o nt r ol
H ol d R e st r ai nt. ” ( I d.)
S e r g e a nt M att h e w P ut n a m st at e d a s f oll o w s
i n hi s U s e of F o r c e R e p o rt:

A p p. 4 5
I a s si st e d i n t h e h a n d c uffi n g of S h a s e
H o w s e b y p ulli n g hi s ri g ht a r m f r o m
u n d e r n e at h hi m a n d b ri n gi n g it b e hi n d
hi s b a c k. T h e m al e w a s t h r a s hi n g a b o ut,
r ef u si n g m ulti pl e v e r b al c o m m a n d s t o
p l a c e hi s h a n d s b e hi n d hi s b a c k. T h e
m a l e w a s b ei n g d et ai n e d b y D et.
Mi d d a u g h o n s u s pi ci o n of b r e a ki n g a n d
e nt e ri n g i nt o a n a b a n d o n e d h o m e.
H o w s e ki c k e d hi s l e g s a n d pi n n e d hi s
a r m s u n d e r n e at h hi s b o d y t o p r e v e nt
c uffi n g.
( D o c k et # 3 7-3.) Wit h r e g a r d t o t y p e of r e si st a n c e
M r. H o w s e u s e d a g ai n st hi m, S e r g e a nt P ut n a m
st at e d, “ R e si st H a n d c uffi n g. ” Wit h t h e t y p e of f o r c e
u s e d a g ai n st M r. H o w s e, S e r g e a nt P ut n a m st at e d,
“P ull. ” ( I d.)
R e g a r di n g
hi s i n v e sti g ati o n,
S e r g e a nt
D o n al d R o bi n s o n st at e d, i n r el e v a nt p a rt, a s
f oll o w s:
D et e cti v e s
Mi d d a u g h # 2 1 2 8 a n d
H o d o u s # 2 4 5 1 c o nf r o nt e d a m al e o n
t h e p o r c h w h o a p p e a r e d t o b e b r e a ki n g
int o a v a c a nt h o u s e. A s b ot h d et e cti v e s
a p p r o a c h e d ( S h a s e H o w s e), ( H o w s e)
b e c a m e b elli g e r e nt wit h d et e cti v e s
u p o n b ei n g q u e sti o n e d if h e li v e d
t h e re. ( H o w s e) t o o k a fi g hti n g st a n c e,
b e g a n t o g r o wl a n d di r e ct p r of a nit y
t o w ar d d et e cti v e s. B ot h d et e cti v e s

A p p. 4 6
w hi l e att e m ptin g t o c o nt r ol t h e
sit u ati o n, b eli e vi n g ( H o w s e) m a y b e
c o n c e ali n g a w e a p o n, t o o k hi m t o t h e
g r o u n d a n d att e m pt e d t o h a n d c uff hi m
w hi l e h e w a s ki c ki n g a n d pi n n e d hi s
a r m s b e n e at h hi m. S gt. P ut n a m t h e n
a s si st e d b y p ulli n g ( H o w s e) ri g ht a r m
f ro m
u n d er
hi m,
use d
j oi nt
m a ni p ul ati o n a n d h el p
h a n d c uff
( Ho w s e). At t hi s ti m e, w hil e utili zi n g
my
W C S, I i nt e r vi e w e d ( H o w s e) a n d
a s k e d hi m w h at h a p p e n e d. ( H o w s e)
st at e d h e w a s a p p r o a c h e d b y t h e
d et e cti v e s a n d q u e sti o n e d if h e li v e d
li v e d [ si c] at a b o v e l o c ati o n. H e f u rth e r
st at e d h e w a s u p s et a b o ut b ei n g
h a r a s s e d a n d t h at ’s w h y h e a ct e d i n
t h e m a n n e r i n w hi c h h e di d. ( H o w s e)
w a s n ot i nj u r e d a s a r e s ult of t hi s
in ci d e nt. I o b s e r v e d n o si g n s of
inj u ri e s a n d E M S w a s r ef u s e d. T a ki n g
a ll i nt e r vi e w s a n d st at e m e nt s i nt o
a c c o u nt, [t h e D et e cti v e s ’] acti o n s w e r e
a p p r o p ri at e a n d w ell wit hi n di vi si o n al
g ui d eli n e s. I r e c o m m e n d n o f u rt h e r
a cti o n t a k e n.
( D o c k et # s 3 7-2 t o 3 7 -4.) E a c h U s e of F o r c e R e p o rt
w a s r e vi e w e d b y a c o m bi n ati o n of s e v e r al m e m b e r s
of t h e Cl e v el a n d P oli c e D e p a rt m e nt — i n cl u di n g
Li e u t e n a nt P at ri ci a M u r p h y; C o m m a n d e r D e n ni s
Hill; D e p ut y C hi ef R e vi e wi n g S e r g e a nt J o s e p h
H a g e m a n; C hi ef R e vi e wi n g S e r g e a nt A nt h o n y

A p p. 4 7
G o r s e k; a n d, D e p ut y C hi ef D o r n at D r u m m o n d —
a n d all f o u n d t h e D et e cti v e s ’ u s e s of f o r c e t o b e
r e a s o n a bl e,
wi t hi n di vi si o n al g ui d eli n e s a n d
r e c o m m e n d e d n o f u rt h e r a cti o n. ( I d.)
M r. H o w s e a r g u e s t h at h e a n d hi s m ot h e r
s h o ul d h a v e b e e n i nt e r vi e w e d r e g a r di n g t h e
D et e cti v e s ’ u s e of f o r c e a n d t h at t h e Ci t y n e v e r
i n v e sti g at e d t h e e a rli e r st o p a n d f ri s k of M r.
H o w s e b y u n k n o w n Cl e v el a n d p oli c e offi c e r s p ri o r
t o t h e e v e nt s i n v ol vi n g D et e cti v e s H o d o u s a n d
Mi d d a u g h.
I n di c t m e n t; Ci ti z e n C o m pl ai n t;
Di s mi s s al of C h a r g e s.
O n J ul y 2 8, 2 0 1 6, D et e cti v e Mi d d a u g h
si g n e d a C o m pl ai nt a g ai n st M r. H o w s e c h a r gi n g
hi m wit h A s s a ult o n a P oli c e Offi c e r. ( D o c k et # 2 9 5) O n S e pt e m b e r 7, 2 0 1 6, M r. H o w s e w a s i n di ct e d
b y a C u y a h o g a C o u nt y G r a n d J u r y o n t w o f el o n y
c o u nt s of A s s a ult o n a P oli c e Offi c e r i n vi ol ati o n of
O hi o R e vi s e d C o d e § 2 9 0 3. 1 3( A) a n d o n e c o u nt of
O b st r u cti n g Offi ci al B u si n e s s i n vi ol ati o n of O hi o
R e vi s e d C o d e § 2 9 2 1. 3 1( A). ( D o c k et # 2 5 -4.)
O n S e pt e m b e r 9, 2 0 1 6, M r. H o w s e fil e d a
Citi z e n C o m pl ai nt F o r m. ( D o c k et # 2 9 -9.) M r.
H o w s e st at e d a s f oll o w s:
W hil e st a n di n g o n t h e p o r c h of m y
h o m e at 7 4 7 E. 1 0 2 n d St., Cl e v el a n d
P oli c e c a m e o n t o m y p r o p e rt y, t h r e w
m e t o t h e fl o o r a n d c o m m e n c e d
st ri ki n g m e. I r e p e at e dl y e x pl ai n e d

A p p. 4 8
t h at t hi s w a s m y h o u s e b ut t h e y
i g n o r e d m y e x pl a n ati o n s a n d a r r e st e d
m e f o r a s s a ult o n a p oli c e offi c e r a n d
o b st r u cti n g offi ci al b u s i n e s s.
M r. H o w s e i n di c at e d t h at h e s o u g ht, “Di s mi s s al of
c h a r g e s, t r ai ni n g r el ati v e t o r a ci al p r ofili n g, p u bli c
a p ol o g y a n d p a y m e nt of c o m p e n s at o r y d a m a g e s. ”
( I d.) M r. H o w s e all e g e s t h at t h e Offi c e of P r of e s si o n a l
St a n d a r d s h a s t a k e n n o a cti o n t o i n v e sti g ate M r .
H o w s e’ s Citi z e n C o m pl ai nt.
O n O ct o b e r 4, 2 0 1 6, all c h a r g e s a g ai n st M r.
H o w s e w e r e di s mi s s e d b y t h e P r o s e c ut o r at t h e
r e c o m m e n d ati o n
of
D et e cti v e
Mi d d a u g h.
D et e cti v e Mi d d a u g h t e stifi e d d u ri n g d e p o siti o n
t h at h e s p o k e wit h M s. S a nt a ri a b o ut M r. H o w s e ’s
m e nt al h e alt h a n d u n d e r st o o d “t he f a ct t h at h e
m a y o r m a y n ot h a v e b e e n st o p p e d b ef o r e ” t h at
s a m e e v e ni n g. D et e cti v e Mi d d a u g h st at e d, I j u st
ki n d of f elt li k e t hi s w a s a n o p p o rt u nit y t o gi v e
t hi s ki d a s e c o n d c h a n g e a n d d o s o m et hi n g ri g ht.
I d o n ’t w a nt t o m a r hi s r e c o r d wit h a f el o n y. ”
( Mi d d a u g h D e p o. at p. 9 3.)
I I.

T h e C o m pl ai n t.

O n J ul y 2 1, 2 0 1 7, M r. H o w s e fil e d hi s
C o m pl ai nt i n t h e C u y a h o g a C o u nt y C o u rt of
C o m m o n Pl e a s. T h e c a s e w a s r e m o v e d t o t hi s
C o u rt o n A u g u st 1 6, 2 0 1 7. M r. H o w s e all e g e s
cl ai m s a g ai n st all D ef e n d a nt s u n d e r 4 2 U. S. C. §
1 9 8 3 for
e x c e s si v e f o r c e
and
m ali ci o u s
p r o s e c uti o n, a n d a g ai n st D et e cti v e s H o d o u s a n d
Mi d d a u g h u n d e r 4 2 U. S. C. § 1 9 8 3 f o r a s s a ult a n d

A p p. 4 9
b att e r y.
M r.
H o w s e ’s
C o m pl ai n t
i n cl u d e s
s t a t e m e n t s r e g a r di n g t h e Ci t y ’s all e g e d f ail u r e s
i n t r ai ni n g, i n v e s ti g a ti o n an d di s ci pli n e, a n d
r el a t e s t h o s e t o t h e C o n s ti t u ti o n al vi ol a ti o n s
all e g e d b y M r. H o w s e. I n hi s B ri ef i n O p p o si ti o n
t o t h e Ci t y ’s M o ti o n f o r S u m m a r y J u d g m e n t,
M r. H o w s e s t a t e s, “ Al s o n a m e d i s t h e Ci t y of
Cl e v el a n d b a s e d o n t h e Ci t y ’s utili zi n g a c u s t o m
o r p r a c ti c e of f aili n g t o p r o p e rl y i n v e s ti g a t e
i n ci d e n t s i n v ol vi n g t h e i m p r o p e r u s e of f o r c e b y
p oli c e offi c e r s e m pl o y e d b y t h e Ci t y of Cl e v el a n d
a n d t o s hi el d p oli c e offi c e r s f r o m t h ei r
u n c o n s ti t u ti o n al b e h a vi o r. ” “ B a si c all y, Pl ai n tiff
c o n t e n d s t h a t t h e Ci t y ’s p oli c e s, al t h o u g h
f a ci all y n e u t r al, w e r e u tili z e d t o d e n y hi m hi s
c o n s tit u ti o n al
ri g h t s
w hi c h
w as
w ell d o c u m e n t e d i n a 2 0 1 4 i n v e s ti g a ti o n r e p o r t
i s s u e d b y t h e U. S. D e p a r t m e n t of J u s ti c e. ” M r.
H o w s e all e g e s t h a t t h e Ci t y ’s i n v e sti g a ti o n i nt o
t h e Offi c e r s ’ u s e of f o r c e i n t hi s c a s e w a s
i n s uffi ci e n t a n d t h a t t h e Ci t y h a d a p a t t e r n o r
p r a c ti c e of i n a d e q u a t el y i n v e s ti g a ti n g u s e of
f o r c e cl ai m s i n o r d e r t o s hi el d t h e D e t e cti v e s
f r o m li a bili t y. ( D o c k e t # 3 3 a t p p. 9 -1 2.)
I I I.

M o ti o n s f o r S u m m a r y J u d g m e n t.

D ef e n d a nt s fil e d t h ei r M oti o n s f o r S u m m a r y
J u d g m e nt o n N o v e m b e r 2 0, 2 0 1 8. ( D o c k et # s 2 5
a n d 2 6.) D et e cti v e s H o d o u s a n d Mi d d a u g h a r g u e
t h at t h e y a r e e ntitl e d t o q u alifi e d a n d/ o r st at ut o r y
i m m u nit y a s t o all of M r. H o w s e’s cl ai m s a n d t h at
M r. H o w s e h a s ot h e r w i s e f ail e d t o p r e s e nt e vi d e n c e

A p p. 5 0
s uffi ci e nt t o wit h st a n d s u m m a r y j u d g m e nt. T h e
Cit y of Cl e v el a n d a r g u e s t h at M r. H o w s e h a s f ail e d
t o a s s e rt a n y v ali d cl ai m a g ai n st t h e Cit y.
M r.
H o w s e fil e d
O p p o siti o n B ri ef s o n
D e c e m b e r 2 0, 2 0 1 8 ( D o c k et # 2 9) a n d J a n u a r y 4,
2 0 1 9 ( D o c k et # 3 3). D ef e n d a nt s fil e d R e pl y B ri ef s o n
J a n u a r y 1 7, 2 0 1 9 ( D o c k et # 3 6) a n d J a n u a r y 1 8,
2 0 1 9 ( D o c k et # 3 7). D ef e n d a nt s ’ M oti o n s a r e f ull y
b ri ef e d a n d ri p e f o r r e vi e w.
I V.

S t a n d a r d of R e v i ew.

S u m m a r y j u d g m e nt i s a p p r o p ri at e w h e n t h e
c o u rt i s s ati sfi e d “t h at t h e r e i s n o g e n ui n e i s s u e a s
t o a n y m at e ri al f a ct a n d t h at t h e m o vi n g p a rt y i s
e ntitl e d t o a j u d g m e nt a s a m att e r of l a w. ” F E D. R.
C I V . P. 5 6( a). T h e b u r d e n of s h o wi n g t h e a b s e n c e
of a n y s u c h “g e n ui n e i s s u e ” r e st s wit h t h e m o vi n g
p a rt y:
[ A] p a rt y s e e ki n g s u m m a r y j u d g m e nt
al w a y s b e a r s t h e i niti al r e s p o n si bilit y
of i nf o r mi n g t h e di st ri ct c o u rt of t h e
b a si s f o r it s m oti o n, a n d i d e ntif yi n g
t h o s e p o rti o n s of ‘t h e pl e a di n g s,
d e p o siti o n s,
a ns w ers
to
i nt e r r o g at o ri e s, a n d a d mi s si o n s o n
fil e, t o g et h e r wit h affi d a vit s, if a n y,’
w hi c h it b eli e v e s d e m o n st r at e s t h e
a b s e n c e of a g e n ui n e i s s u e of m at e ri al
f a ct.

C el ot e x v. C at r ett, 4 7 7 U. S. 3 1 7, 3 2 3 ( 1 9 8 6). A f a ct
i s “m at e ri al ” o nl y if it s r e s ol uti o n will aff e ct t h e
o ut c o m e of t h e l a w s uit. A n d e r s o n v. Li b e rt y L o b b y,
I n c., 4 7 7 U. S. 2 4 2, 2 4 8 ( 1 9 8 6). D et e r mi n ati o n of

A p p. 5 1
w h et h e r a f a ct u al i s s u e i s “g e n ui n e ” r e q ui r e s
c o n si d e r ati o n of t h e a p pl i c a bl e e vi d e nti a r y
st a n d a r d s. T h e c o u rt will vi e w t h e s u m m a r y
j u d g m e nt m oti o n i n t h e li g ht m o st f a vo r a bl e t o t h e
p a rt y o p p o si n g t h e m oti o n. M at s u s hit a El e c. I n d u s.
C o. v . Z e nit h R a di o C o r p., 4 7 5 U. S. 5 7 4, 5 8 7 ( 1 9 8 6).
S u m m a r y j u d g m e nt s h o ul d b e g r a nt e d if a
p a rt y w h o b e a r s t h e b u r d e n of p r o of at t ri al d o e s
n ot e st a bli s h a n e s s e nti al el e m e nt of t h ei r c a s e.
T ol t o n v. A m e ri c a n Bi o d y n e, I n c., 4 8 F. 3 d 9 3 7, 9 4 1
( 6 t h Ci r. O hi o 1 9 9 5) ( citi n g C el ot e x, 4 7 7 U. S. at
3 2 2). A c c o r di n gl y, “[t] h e m e r e e xi st e n c e of a
s ci ntill a of e vi d e n c e i n s u p p o rt of t h e pl ai ntiff s
p o siti o n will b e i n s uffi ci e nt; t h e r e
m u st b e
e vi d e n c e o n w hi c h t h e j u r y c o ul d r e a s o n a bl y fi n d
f o r t h e pl ai ntiff.” C o p el a n d v. M a c h uli s, 5 7 F. 3 d
4 7 6, 4 7 9 ( 6 t h Ci r. Mi c h. 1 9 9 5) ( citi n g A n d e r s o n, 4 7 7
U. S. at 2 5 2). M o r e o v e r, if t h e e vi d e n c e p r e s e nt e d i s
“m e r el y
c ol o r a bl e ”
and
n ot
“si g nifi c a ntl y
p r o b ati v e, ” t h e c o u rt m a y d e ci d e t h e l e g al i s s u e
a n d g r a nt s u m m a r y j u d g m e nt. A n d e r s o n, 4 7 7 U. S.
at 2 4 9 -5 0 ( cit ati o n s o mitt e d).
O n c e t h e m o vi n g p a rt y h a s s ati sfi e d it s
b u r d e n of p r o of, t h e b u r d e n t h e n s hift s t o t h e
n o n m o vi n g p a rt y. T h e n o n m o vi n g p a rt y m a y n ot
si m pl y r el y o n it s pl e a di n g s, b ut m u st “p r o d u c e
e vi d e n c e t h at r e s ult s i n a c o nfli ct of m at e ri al f a ct
t o b e s ol v e d b y a j u r y.” C o x v. K e nt u c k y D e p ’t of
T r a n s p., 5 3 F. 3 d 1 4 6, 1 4 9 ( 6 t h Ci r. K y. 1 9 9 5). F E D.
R. C I V. P. 5 6( e) st at e s:
W he n
a
m oti o n f o r s u m m a r y
j u d g m e nt i s m a d e a n d s u p p o rt e d a s

A p p. 5 2
p r o vi d e d i n t hi s r ul e, a n a d v e r s e
p a rt y m a y n ot r e st u p o n t h e m e r e
all e g ati o n s o r d e ni al s of t h e a d v e r s e
p a rt y ’s pl e a di n g, b ut t h e a d v e r s e
p a rt y ’s r e s p o n s e, b y affi d a vit s o r a s
ot h e r wi s e p r o vi d e d i n t hi s r ul e, m u st
s et f o rt h s p e cifi c f a ct s s h o wi n g t h at
t h e r e i s a g e n ui n e i s s u e f o r t ri al.
T h e F e d e r al R ul e s i d e ntif y t h e p e n alt y f o r t h e l a c k
of s u c h a r e s p o n s e b y t h e n o n m o vi n g p a rt y a s a n
a ut o m ati c g r a nt of s u m m a r y j u d g m e n t, w h e r e
ot h e r wi s e a p p r o p ri at e. I d.
A s a g e n e r al m att e r, t h e di st ri ct j u d g e
c o n si d e ri n g a m oti o n f o r s u m m a r y j u d g m e nt i s t o
e x a mi n e “ [ o] nl y di s p ut e s o v e r f a ct s t h at mi g ht
aff e ct t h e o ut c o m e of t h e s uit u n d e r g o v e r ni n g
l a w.” A n d e r s o n, 4 7 7 U. S. at 2 4 8. T h e c o u rt will n ot
c o n si d e r n o n -m at e ri al f a ct s, n o r will i t w ei g h
m at e ri al e vi d e n c e t o d et e r mi n e t h e t r u t h of t h e
m att e r. I d. at 2 4 9. T h e j u d g e ’s s ol e f u n cti o n i s t o
d et e r mi n e w h et h e r t h e r e i s a g e n ui n e f a ct u al i s s u e
f o r t ri al; t hi s d o e s n ot e xi st u nl e s s “t h e r e i s
s uffi ci e nt e vi d e n c e f a v o ri n g t h e n o n m o vi n g p a rt y
f o r a j u r y t o r et u r n a v e r di ct f o r t h at p a rt y. ” I d.
I n s u m, p r o p e r s u m m a r y j u d g m e nt a n al y si s
e nt ail s “t h e t h r e s h ol d i n q ui r y of d et e r mi ni n g
w h et h e r t h e r e i s t h e n e e d f o r a t ri al — w h et h e r, i n
ot h e r w o r d s, t h e r e a r e a n y g e n ui n e f a ct u al i s s u e s
t h at p r o p e rl y c a n b e r e s ol v e d o nl y b y a fi n d e r of
f a ct b e c a u s e t h e y ma y r e a s o n a bl y b e r e s ol v e d i n
f a v o r of eit h e r p a rt y.” A n d e r s o n, 4 7 7 U. S. at 2 5 0.
V.

D i s c u s si o n.

A p p. 5 3
I n o r d e r t o p r e v ail o n a cl ai m b r o u g ht
p u r s u a nt t o § 1 9 8 3, a pl ai ntiff m u st e st a bli s h b y a
p r e p o n d e r a n c e of t h e e vi d e n c e t h at a p e r s o n a cti n g
u n d e r t h e c ol o r of l a w d e p ri v e d hi m of a ri g ht
s e c u r e d b y t h e U nit e d St at e s C o n stit uti o n o r t h e
l a w s of t h e U nit e d St at e s. S m o a k v. H all, 4 6 0 F. 3 d
7 6 8, 7 7 7 ( 6t h Ci r. T e n n. 2 0 0 6). A vi ol ati o n of § 1 9 8 3
m u st b e i nt e nti o n al o r k n o wi n gl y c o m mitt e d i n
o r d e r t o b e c o m p e n s a bl e. A n e gli g e nt o r r e c kl e s s
d e p ri v ati o n i s n ot s uffi ci e nt. A hl e r s v. S c h e bil, 1 8 8
F . 3 d 3 6 5, 3 7 3 ( 6t h Ci r. Mi c h. 1 9 9 9). F u rt h e r, a n
inj u r y c a u s e d b y m e r e n e gli g e n c e, t h at d o e s n ot ri s e
t o t h e l e v el of a c o n stit uti o n all y p r ot e ct e d i nt e r e st i s
n ot c o m p e n s a bl e u n d e r § 1 9 8 3. S e e C olli n s v. Cit y of
S h a k e r H ei g ht s, 5 0 3 U. S. 1 1 5 ( 1 99 2).
G o v e r n m e nt offi ci al s a r e p r ot e ct e d f r o m
li a bilit y f o r ci vil d a m a g e s, i n cl u di n g t h o s e t h at
a ri s e u n d e r § 1 9 8 3, “i n s of a r a s t h ei r c o n d u ct d o e s
n ot vi ol at e cl e a rl y e st a bli s h e d st at ut o r y o r
c o n stit uti o n al ri g ht s of w hi c h a r e a s o n a bl e p e r s o n
w o ul d h a v e k n o w n. ” P e a r s o n v. C all a h a n, 5 5 5 U. S.
2 2 3, 2 3 1 ( 2 0 0 9). Q u alifi e d i m m u ni t y p r o t e ct s
“all b u t t h e pl ai nl y i n c o m p e t e n t o r t h o s e w h o
k n o wi n gl y vi ol a t e t h e l a w. ” A s h c r oft v. al -Ki d d,
5 6 3 U. S. 7 3 1, 7 4 3 ( 2 0 1 1).
T o d e t e r mi n e w h e t h e r q u alifi e d i m m u ni t y
a p pli e s i n a gi v e n c a s e, w e u s e a t w o -s t e p
a n al y si s: ( 1) vi e wi n g t h e f a c t s i n t h e li g h t m o s t
f a v o r a bl e t o t h e pl ai n tiff, w e d e t e r mi n e w h e t h e r
t h e all e g a ti o n s gi v e ri s e t o a c o n s tit u ti o n al
vi ol a ti o n; a n d ( 2) w e a s s e s s w h e t h e r t h e ri g h t
w a s cl e a rl y e st a bli s h e d a t t h e ti m e of t h e
i n ci d e n t. C a m p b ell v. Cit y of S p ri n g b o r o. O hi o,

A p p. 5 4
7 0 0 F. 3 d 7 7 9, 7 8 6 ( 6 t h Ci r. O hi o 2 0 1 2); s e e al s o
S a u ci e r v. K at z, 5 3 3 U. S. 1 9 4, 2 0 1 ( 2 0 0 1). W e c a n
c o n si d e r t h e s e s t e p s i n a n y o r d e r. P e a r s o n v.
C all a h a n, 5 5 5 U. S. 2 2 3, 2 3 6 ( 2 0 0 9).
L o c al g o v e r n m e n t s m a y n o t b e s u e d u n d e r
4 2 U. S. C. § 1 9 8 3 f o r a n i nj u r y i nfli c t e d s ol el y b y
e m pl o y e e s o r a g e n t s u n d e r a r e s p o n d e a t
s u p e ri o r t h e o r y of li a bili t y. S e e M o n ell v. D e p ’t of
S o c. S e r v s., 4 3 6 U. S. 6 5 8, 6 9 1 ( 1 9 7 8). “I n s t e a d, i t
i s w h e n e x e c u ti o n of a g o v e r n m e n t’s p oli c y o r
c u s t o m, w h e t h e r m a d e b y i t s l a w m a k e r s o r b y
t h o s e w h o s e e di c t s o r a c t s m a y f ai rl y b e s ai d t o
r e p r e s e n t offi ci al p oli c y, i nfli c t s t h e i nj u r y t h a t
t h e g o v e r n m e n t a s a n e n ti t y i s r e s p o n si bl e
u n d e r § 1 9 8 3. ” I d. a t 6 9 4. A m u ni ci p ali t y c a n,
t h e r ef o r e,
be
h el d
li a bl e
w he n
it
u n c o n s ti t u ti o n all y “i m pl e m e n t s o r e x e c u t e s a
p oli c y s t a t e m e n t, o r di n a n c e, r e g ul a ti o n, o r
d e ci si o n offi ci all y a d o p t e d a n d p r o m ul g a t e d b y
t h a t b o d y ’s offi c e r s. ” I d. a t 6 9 0; s e e al s o D e Pi e r o
v. Cit y of M a c e d o ni a, 1 8 0 F. 3 d 7 7 0, 7 8 6 ( 6 t h Ci r.
O hi o 1 9 9 9). A pl ai n tiff m u st p r o v e ( 1) t h e
e xi st e n c e of a cl e a r a n d p e r si s t e n t p a t t e r n of
[ill e g al a c ti vi t y]; ( 2) n o ti c e o r c o n s t r u c ti v e n o ti c e
o n t h e p a r t of t h e [ d ef e n d a n t]; ( 3) t h e
[ d ef e n d a n t’s]
t a ci t
a p p r o v al
of
t he
u n c o n s ti t u ti o n al c o n d u c t, s u c h t h a t t h ei r
d eli b e r a t e i n diff e r e n c e i n t h ei r f ail u r e t o a ct c a n
b e s ai d t o a m o u n t t o a n offi ci al p oli c y of i n a c ti o n;
a n d ( 4) t h a t t h e [ d ef e n d a n t ’s] c u s t o m w a s t h e
“ m o vi n g f o r c e ” o r di r e c t c a u s al li n k i n t h e
c o n s tit u ti o n al d e p ri v a ti o n. T h o m a s v. Cit y of
C h att a n o o g a, 3 9 8 F. 3 d 4 2 6, 4 2 9 ( 6 t h Ci r. T e n n.

A p p. 5 5
2 0 0 5).

E m pl o y e e s of a p oliti c al s u b di vi si o n al s o
e nj o y i m m u nit y f r o m c e rt ai n cl ai m s p u r s u a nt t o
O hi o R e v. C o d e § 2 7 4 4. 0 3( A)( 6). T h a t s e cti o n
p r o vi d e s i m m u nit y t o a cit y e m pl o y e e f r o m “a ci vil
a cti o n b r o u g ht ... t o r e c o v e r d a m a g e s f o r i nj u r y,
d e at h, o r l o s s t o p e r s o n s o r p r o p e rt y all e g e dl y
c a u s e d b y a n y a ct o r o mi s si o n i n c o n n e cti o n wit h a
g o v e r n m e nt al o r p r o p ri et a r y f u n cti o n, ” u nl e s s t h e
e m pl o y e e a ct e d o ut si d e t h e s c o p e of
hi s
e m pl o y m e nt, a ct e d “ wit h m ali ci o u s p u r p o s e, i n b a d
f ait h, o r i n a w a nt o n o r r e c kl e s s m a n n e r,” o r u nl e s s
“li a bilit y i s e x p r e s sl y i m p o s e d u p o n t h e e m pl o y e e
b y a s e cti o n of t h e R e vi s e d C o d e. ” O hi o R e v. C o d e
§ 2 7 4 4. 0 3( A)( 6)( a) -( c).
“M ali ci o u s p u r p o s e e n c o m p a s s e s e x e r ci si n g
‘m ali c e, ’ w hi c h c a n b e d efi n e d a s t h e willf ul a n d
i nt e nti o n al d e si g n t o d o i nj u r y, o r t h e i nt e nti o n o r
d e si r e t o h a r m a n ot h e r, u s u all y s e ri o u sl y, t h r o u g h
c o n d u ct t h at i s u nl a wf ul o r u nj u stifi e d. ” C a r u s o v.
St at e, 1 3 6 O hi o A p p. 3 d 6 1 6, 6 2 0, 7 3 7 N. E. 2 d 5 6 3
( O hi o Ct. A pp. 2 0 0 0) ( citi n g J a c k s o n v. B utl e r Ct y.
B d. O f Ct y. C o m m ’r s., 7 6 O hi o A p p. 3 d 4 4 8, 4 5 3 4 5 4, 6 0 2 N. E. 2 d 3 6 3 ( O hi o Ct. A p p. 1 9 9 1)). A n a ct
i s c o m mitt e d r e c kl e s sl y if it i s d o n e “wit h
k n o wl e d g e o r r e a s o n t o k n o w of f a ct s t h at w o ul d
l e a d a r e a s o n a bl e p e r s o n t o b eli e v e t h at t h e
c o n d u ct c r e at e s a n u n n e c e s s a r y ri s k of p h y si c al
h a r m a n d t h at s u c h ri s k i s g r e at e r t h a n t h at
n e c e s s a r y t o m a k e t h e c o n d u ct n e gli g e nt. ” C a r u s o,
1 3 6 O hi o A p p. 3 d at 6 2 1 ( citi n g H a c k at h o r n v.
P r ei s s e, 1 0 4 O hi o A p p. 3 d 7 6 8, 7 7 1, 6 6 3 N. E. 2 d 3 8 4
( O hi o Ct. A p p. 1 9 9 5)).

A p p. 5 6
A.

E x c e s si v e F o r c e.

T h e F o u rt h A m e n d m e nt p r o vi d e s t h at “t h e
ri g ht of t h e p e o pl e t o b e s e c u r e i n t h ei r p e r s o n s,
h o u s e s, p a p e r s, a n d eff e ct s, a g ai n st u n r e a s o n a bl e
s e a r c h e s a n d s ei z u r e s, s h all n ot b e vi ol at e d. ” T h e
U nit e d St at e s S u p r e m e C o u rt h a s h el d t h at a n
offi c e r m a y c o n d u ct a n i n v e sti g at o r y st o p wit h o ut
t h e p r o b a bl e c a u s e n e e d e d f o r a n a r r e st w h e r e t h e
offi c e r “‘ o b s e r v e s u n u s u al c o n d u ct w hi c h l e a d s hi m
r e a s o n a bl y t o c o n cl u d e i n li g ht of hi s e x p e ri e n c e
t h at c ri mi n al a cti vit y m a y b e af o ot a n d t h at t h e
p e r s o n s wit h w h o m h e i s d e ali n g mi g ht b e a r m e d
a n d p r e s e ntl y d a n g e r o u s. ” T e r r y v. O hi o, 3 9 2 U. S.
1, 3 0 ( 1 9 6 8). I n a d di ti o n, a n i n v e sti g at o r y st o p, o r
T e r r y st o p, i s n ot u n r e a s o n a bl e if t h e d et e nti o n
l a st s n o l o n g e r t h a n n e c e s s a r y t o eff e ct u at e t h e
p u r p o s e of t h e s ei z u r e. U nit e d St at e s v. P e r e z, 4 4 0
F. 3 d 3 6 3, 3 6 9 -7 0 ( 6t h Ci r. T e n n. 2 0 0 6).
E x c e s si v e f o r c e cl ai m s a r e a n al y z e d u n d e r
t he
F o u rt h
A m e n d m e nt ’s
r e a s o n a bl e n e s s
st a n d a r d. S e e G r a h a m v. C o n n o r, 4 9 0 U. S. 3 8 6,
3 9 5 ( 1 9 8 9). T hi s st a n d a r d e n c o m p a s s e s “ a b uilt -i n
m e a s u r e of d ef e r e n c e t o t h e offi c e r ’s o n -t h e -s p ot
j u d g m e nt a b o ut t h e l e v el of f o r c e n e c e s s a r y i n li g ht
of t h e ci r c u m st a n c e s of t h e p a rti c ul a r c a s e. ”
B u r c h ett v. Ki ef e r, 3 1 0 F. 3 d 9 3 7, 9 4 4 ( 6t h Ci r. O hi o
2 0 0 2) ( citi n g G r a h a m, 4 9 0 U. S. at 3 9 6). I t “all o w[ s]
f o r t h e f a ct t h at p oli c e offi c e r s a r e oft e n f o r c e d t o
m a k e s plit -s e c o n d j u d g m e nt s - i n ci r c u m st a n c e s
t h at a r e t e n s e, u n c e rt ai n, a n d r a pi dl y e v ol vi n g a b o ut t h e a m o u nt of f o r c e t h at i s n e c e s s a r y i n a
p a rti c ul a r sit u ati o n. ” G r a h a m, 4 9 0 U. S. a t 3 9 6 -9 7.
“A n offi c e r s h o ul d b e e ntitl e d t o q u alifi e d

A p p. 5 7
i m m u nit y if h e m a d e a n o bj e cti v el y r e a s o n a bl e
mi st a k e a s t o t h e a m o u nt of f o r c e t h at w a s
n e c e s s a r y u n d e r t h e ci r c u m st a n c e s wit h w hi c h h e
w a s f a c e d. ” S ol o m o n v. A u b u r n Hill s P oli c e D e pt.,
3 8 9 F. 3 d 1 6 7, 1 7 5 ( 6t h Ci r. Mi c h. 2 0 0 4) ( cit ati o n
o mitt e d). T h e f a ct o r s c o n si d e r e d i n a s s e s si n g a
c o n sti t uti o n al e x c e s si v e f o r c e cl ai m i n cl u d e t h e
p a rti c ul a r f a ct s a n d ci r c u m st a n c e s of e a c h c a s e,
t h e s e v e rit y of t h e c ri m e, t h e t h r e at p o s e d b y t h e
s u s p e ct, a n d w h et h e r t h e s u s p e ct i s “a cti v el y
r e si sti n g a r r e st o r a tt e m pti n g t o e v a d e a r r e st b y
fli g ht.” G r a h a m,
490
U. S.
at
3 9 6.
“T h e
‘r e a s o n a bl e n e s s ’ of t h e p a rti c ul a r u s e of f o r c e m u st
b e j u d g e d f r o m t h e p e r s p e cti v e of a r e a s o n a bl e
offi c e r o n t h e s c e n e, r at h e r t h a n wit h t h e 2 0/ 2 0
vi si o n of hi n d si g ht. ” G r a h a m, 4 9 0 U. S. at 3 9 6.
M r. H o w s e a r g u e s t h at h e w a s u nl a wf ull y
d et ai n e d b y D et e cti v e s H o d o u s a n d Mi d d a u g h o n
t h e e v e ni n g of J ul y 2 8, 2 0 1 6 a n d t h at t h e f o r c e u s e d
d u ri n g hi s d et e nti o n b y D et e cti v e s H o d o u s a n d
Mi d d a u g h w a s e x c e s si v e. T h e f a ct s r el e v a nt t o t hi s
i n q ui r y a r e n ot i n di s p ut e. T h e D et e cti v e s o b s e r v e d
M r. H o w s e o n t h e f r o nt p o r c h of w h at t h e y
mi st a k e nl y b eli e v e d t o b e a v a c a nt h o m e i n a hi g h
c ri m e a r e a. T h e y st o p p e d a n d q u e sti o n e d M r.
H o w s e, w h o f ail e d t o c o m pl y wit h D et e cti v e s ’
r e q u e st s a n d a cti v el y r e si st e d t h ei r att e m pt s t o
s e c u r e hi m. T h e D et e cti v e s u s e d f o r c e n o g r e at e r
t h a n t h at n e c e s s a r y t o c o nt r ol t h e sit u ati o n.
C o n si d e ri n g t h e t ot alit y of t h e ci r c u m st a n c e s, t h e
D et e cti v e s ’ c o n d u ct w a s o bj e cti v el y r e a s o n a bl e a n d
D et e cti v e s H o d o u s a n d Mi d d a u g h a r e e ntitl e d t o
q u alifi e d i m m u nit y a s t o M r. H o w s e ’s e x c e s si v e

A p p. 5 8
f o r c e cl ai m.
B.

M al i ci o u s P r o s e c u ti o n.

M r. H o w s e all e g e s t h at D ef e n d a nt s vi ol a t e d
hi s ri g ht t o b e f r e e f r o m m ali ci o u s p r o s e c uti o n
wit h o ut r e a s o n a bl e s u s pi ci o n o r p r o b a bl e c a u s e, i n
vi ol ati o n
of t h e
F o u rt h
and
F o u rt e e nt h
A m e n d m e nt s a n d 4 2 U. S. C. § 1 9 8 3. M r. H o w s e
a r g u e s t h at “D ef e n d a nt s i niti at e d t h e c ri mi n al
p r o s e c uti o n b y i niti all y a s s a ulti n g, b att e ri n g a n d
a r r e sti n g
hi m
wi t h o ut
p r o b a bl e c a u s e o r
r e a s o n a bl e s u s pi ci o n a n d, t h e r e aft e r, p r e p a r e d a
fi ctiti o u s r e p o rt i n a n att e m pt t o j u stif y t h ei r
a cti o n
w hi c h
w a s j u st t o o bt ai n fl a w e d
i n di ct m e nt s.”
A m ali ci o u s p r o s e c uti o n cl ai m r e q ui r e s a
pl ai ntiff p r o v e t h at: ( 1) a c ri mi n al p r o s e c u ti o n w a s
i niti at e d a g ai n st t h e pl ai ntiff a n d t h e d ef e n d a nt
m a d e, i nfl u e n c e d, o r p a rti ci p at e d i n t h e d e ci si o n t o
p r o s e c ut e; ( 2) t h e r e w a s n o p r o b a bl e c a u s e f o r t h e
c ri mi n al p r o s e c uti o n; ( 3) a s a c o n s e q u e n c e of t h e l e g al
p r o c e e di n g, t h e pl ai ntiff s uff e r e d a d e p ri v ati o n of
li b e rt y a p a rt f r o m t h e i niti al s ei z u r e; a n d ( 4) t h e
c ri mi n al p r o c e e di n g w a s r e s ol v e d i n t h e pl ai ntiff s
f a vo r. G r a di s h e r v . Ci t y of A k r o n, 7 9 4 F. 3 d 5 7 4 ( 6t h
Ci r. O hi o 2 0 1 5). O r di n a ril y, a n offi c e r c a n n ot b e h el d
li a bl e f o r m ali ci o u s p r o s e c uti o n if h e di d n ot m a ke t h e
d e ci si o n t o p r o s e c ut e. S k o u s e n v. B ri g ht o n Hi g h
S c h o ol, 3 0 5 F. 3 d 5 2 0, 5 2 9 ( 6t h Ci r. Mi c h . 2 0 0 2).
I n m o st c a s e s, “t h e fi n di n g of a n i n di ct m e nt,
f ai r u p o n it s f a c e, b y a p r o p e rl y c o n stit ut e d g r a n d
j u r y, c o n cl u si v el y d et e r mi n e s t h e e xi st e n c e of
p r o b a bl e c a u s e. ” Hi g g a s o n v. St e p h e n s, 2 8 8 F. 3 d

A p p. 5 9
8 6 8 , 8 7 7 ( 6t h Ci r. K y. 2 0 0 2). B ut t h e Si xt h Ci r c uit
h a s r e c o g ni z e d a n e x c e pti o n t o t hi s r ul e f o r c a s e s
w h e r e t h e d ef e n d a nt w h o s et t h e pl ai ntiff s
p r o s e c uti o n i n m oti o n k n o wi n gl y o r r e c kl e s sl y
m a d e a f al s e st at e m e nt. T h e ot h e r wi s e c o n cl u si v e
p r e s u m pti o n b e c o m e s r e b utt a bl e w h e n:
( 1) a l a w-e nf o r c e m e nt offi c e r, i n t h e
c o u r s e of s etti n g a p r o s e c uti o n i n
m oti o n,
eit h e r
k n o wi n gl y
or
r e c kl e s sl y m a k e s f al s e st at e m e nt s
( s u c h a s i n affi d a vit s o r i n v e sti g ati v e
r e p o rt s) o r f al sifi e s o r f a b ri c at e s
e vi d e n c e; ( 2) t h e f al s e st at e m e nt s
a n d e vi d e n c e, t o g et h e r wit h a n y
c o n c o mit a nt mi sl e a di n g o mi s si o n s,
ar e
m at e ri al t o t h e
ulti m at e
p r o s e c uti o n of t h e pl ai ntiff; a n d ( 3)
t h e f al s e st at e m e nt s, e vi d e n c e, a n d
o mi s si o n s d o n ot c o n si st s ol el y of
g r a n d -j u r y t e sti m o n y o r p r e p a r ati o n
for
t h at
t e sti m o n y
( w h er e
p r e p a r ati o n h a s a m e a ni n g b r o a d
e n o u g h t o e n c o m p a s s c o n s pi ri n g t o
c o m mit p e rj u r y b ef o r e t h e g r a n d
j u r y)[.]
Ki n g v. H a r w o o d, 8 5 2 F. 3 d 5 6 8, 5 8 7 -8 8 ( 6t h Ci r.
K y. 2 0 1 7).
A s st at e d a b o v e, t h e C o u rt fi n d s t h at t h e
D et e cti v e s ’ c o n d u ct d u ri n g t h e e v e nt s i n q u e sti o n
w a s o bj e cti v el y r e a s o n a bl e a n d t h at t h e a m o u nt of

A p p. 6 0
f o r c e u s e d w a s n ot e x c e s si v e. M r. H o w s e r e si st e d
t h e D et e cti v e s ’ di r e cti v e s a n d t h ei r att e m pt s t o
s e c u r e hi s a r m s; t h e D et e cti v e s h a d p r o b a bl e c a u s e
t o a r r e st M r. H o w s e; a n d, t h e u n di s p u t e d f a ct s
w e r e s uffi ci e nt t o s u p p o rt t h e c h a r g e s fil e d a g ai n st
hi m. M r. H o w s e w a s i n di ct e d b y a p r o p e rl y
c o n stit ut e d G r a n d J u r y a n d t h e r e i s n o e vi d e n c e
t h at D et e cti v e s H o d o u s o r Mi d d a u g h k n o wi n gl y,
r e c kl e s sl y o r m ali ci o u sl y m a d e f al s e st at e m e nt s o r
f a b ri c at e d
e vi d e n c e.
A c c o r di n gl y,
D et e cti v e s
H o d o u s a n d Mi d d a u g h a r e e ntitl e d t o s u m m a r y
j u d g m e nt a s t o M r. H o w s e’s m ali ci o u s p r o s e c uti o n
cl ai m.
C.

A s s a ul t a n d B a t t e r y.

“‘If a n offi c e r u s e s m o r e f o r c e t h a n i s
n e c e s s a r y t o m a k e a n a r r e s t a n d p r o t e ct hi m s elf
f r o m i nj u r y, h e i s li a bl e f o r a s s a ul t a n d b a t t e r y . .
.’ ” D ’A g o sti n o v. Cit y of W a r r e n, 7 5 A p p x. 9 9 0, 9 9 5
( 6 1h Ci r. O hi o 2 0 0 3) ( q u oti n g Ci t y of Ci n ci n n ati v.
N el s o n, C a s e N o. C -7 4 3 2 1, 1 9 7 5 O hi o A p p. L E XI S
7 4 4 3, * 5 ( M a y 5, 1 9 7 5) ( citi n g 5 O J u r ( 2 d)
A R R E S T § § 5 0) ( u n p u bli s h e d); s e e al s o S c h w e d e r v.
B a r at k o, 1 0 3 O hi o A p p. 3 9 9, 4 0 3, 1 4 3 N. E. 2 d 4 8 6
( 1 9 5 7) (“F o r c e w h e n u s e d l a wf ull y i n m a ki n g a n
a r r e st i s i n t h e e x e r ci s e of a g o v e r n m e nt f u n cti o n,
a n d o nl y i n c a s e s w h e r e e x c e s si v e f o r c e i s u s e d,
t h at i s, f o r c e g oi n g cl e a rl y b e y o n d t h at w hi c h i s
r e a s o n a bl y n e c e s s a r y t o m a k e t h e a r r e st, c a n s u c h
f o r c e b e cl ai m e d a n a s s a ult a n d b att e r y b y t h e
p e r s o n a r r e st e d. ” ). A s st at e d a b o v e, a n offi c e r,
a cti n g i n hi s offi ci al c a p a cit y, i s i m m u n e f r o m
li a bilit y f o r i nj u r y u nl e s s hi s a cti o n s w e r e

A p p. 6 1
“m a nif e stl y
o ut si d e
t he
sc o p e ”
of
hi s
r e s p o n si biliti e s, o r t h e offi c e r a ct e d “wit h
m ali ci o u s p u r p o s e, i n b a d f ait h, o r i n a w a nt o n o r
r e c kl e s s m a n n e r. ” O hi o R e v. C o d e. § 2 7 4 4. 0 3( A)( 6).
A s s et f o rt h a b o v e, t h e f o r c e u s e d t o
eff e ct u at e M r. H o w s e ’s a r r e st w h e n h e f ail e d t o
c o m pl y wit h t h e D et e cti v e s ’ di r e cti v e s a n d a cti v el y
r e si st e d t h ei r att e m pt s t o c o nt r ol hi m w a s n o t
e x c e s si v e a n d t h e r e i s n o e vi d e n c e b y w hi c h a j u r y
c o ul d fi n d t h e D et e cti v e s a ct e d wit h m ali ci o u s
p u r p o s e, i n b a d f ait h, o r i n a w a nt o n o r r e c kl e s s
m a n n e r. A c c o r di n gl y, D et e cti v e s H o d o u s a n d
Mi d d a u g h a r e e ntitl e d t o s u m m a r y j u d g m e nt a s t o
M r. H o w s e ’s e x c e s si v e f o r c e c l ai m.
D.

D ef e n d a n t Ci t y of Cl e v el a n d.

R e g a r di n g m u ni ci p al li a bilit y u n d e r § 1 9 8 3,
t h e S u p r e m e C o u rt h a s h el d t h at if t h e offi c e r
i nfli ct e d n o c o n stit uti o n al i nj u r y o n a p e r s o n, t h e n
it i s “i n c o n c ei v a bl e” t h at t h e Cit y c o ul d b e li a bl e t o
t h e p e r s o n. D e M e r r ell v. Cit y of C h e b o y g a n. 2 0 6
F e d. A p p x. 4 1 8, 4 2 9 ( 6 t h Ci r. Mi c h. 2 0 0 6) ( citi n g
Cit y of L o s A n g el e s v. H ell e r, 4 7 5 U. S. 7 9 6, 7 9 9 (l
9 8 6) ( p e r c u ri a m)). If “a p e r s o n h a s s uff e r e d n o
c o n stit uti o n al i nj u r y at t h e h a n d s of t h e i n di vi d u al
p oli c e offi c e r, t h e f a c t t h at d e p a rt m e nt r e g ul ati o n s
mi g ht h a v e a ut h o ri z e d t h e u s e of c o n stit uti o n all y
e x c e s si v e f o r c e i s q uit e b e si d e t h e p oi nt. ” Cit y of
L o s A n g el e s v. H ell e r, 4 7 5 U. S. 7 9 6, 7 9 9. T h e
f ail u r e t o e st a bli s h a c o n stit uti o n al i nj u r y i nfli ct e d
b y D et e cti v e H o d o u s a n d Mi d d a u g h r e n d e r s M r.
H o w s e ’s cl ai m s a g ai n st t h e Cit y
m e ritl e s s.
A c c o r di n gl y, t h e Ci t y i s e ntitl e d t o s u m m a r y

A p p. 6 2
j u d g m e nt a s a m att e r of l a w. 3
V I.

C o n cl u si o n.

F o r t h e f o r e g oi n g r e a s o n s, t h e M ot i o n s f o r
S u m m a r y J u d g m e nt fil e d b y D ef e n d a nt s, T h o m a s
H o d o u s a n d B ri a n Mi d d a u g h ( D o c k et # 2 5) a n d
D ef e n d a nt, Cit y of Cl e v el a n d ( D o c k et # 2 6) a r e
M r. H o w s e off e r s t h e e x p e r t o pi ni o n of C h a rl e s St e p h e n s o n,
w h o c o n cl u d e d t h at t h e Cl e v el a n d P oli c e D e p a r t m e n t ’s G a n g
I m p a c t U ni t s el e c ti v el y e nf o r c e s l oi t e ri n g o r di n a n c e s t o
a g g r e s si v el y a p p r o a c h i n di vi d u al s s o t h at i t m a y “ si d e st e p
p r o b a bl e c a u s e g ui d eli n e s t o w a r r a n t a g g r e s si v e st o p a n d
f ri s k a c ti vi ti e s,” a n d t h at t h e s e a c ti o n s a r e c o n d o n e d,
e nc o ur a g e d a n d re w ar d e d b y t h e
Cl e v el a n d
P oli c e
D e p a r t m e n t. M r. St e p h e n s o n r eli e s u p o n t h e D e c e m b e r 4,
2 0 1 4 R e p o r t b y t h e U. S. D e p a r t m e n t of J u sti c e o n t h e u s e of
f o r c e b y t h e Cl e v el a n d P oli c e D e p a r t m e n t, w hi c h f oll o w e d a n
i n v e sti g ati o n b y t h e D O J a n d t h e Ci vil Ri g h t s Di vi si o n of t h e
U. S. A tt o r n e y' s Offi c e f o r t h e N o r t h e r n Di st ri c t of O hi o i n
r e s p o n s e t o a s e ri e s of p r o mi n e n t i n ci d e n t s i n v ol vi n g t h e
e x c e s si v e u s e of f o r c e b y t h e C P D. M r. H o w s e c a n n o t r el y
u p o n t h e D O J R e p o rt a n d s u b s e q u e nt C o n s e nt D e c r e e t o
e st a bli s h hi s M o n ell cl ai m. L o p e z v. Cit y of Cl e v el a n d, C a s e
N o. 1: 1 3 C V 1 9 3 0, 2 0 1 6 U. S. Di st. L E X I S 2 6 0 2 8 ( N. D. O hi o
M a r c h 1, 2 0 1 6). F u r t h e r m o r e, w hil e t h e r e w a s t e sti m o n y
r e g a r di n g a vi gil i n t h e a r e a e a rli e r, t h e u n di s p u t e d
t e sti m o n y r efl e c t s t h at M r. H o w s e w a s q u e s ti o n e d a n d
a p p r o a c h e d b y t h e D e t e c ti v e s b a s e d o n t h ei r mi st a k e n b eli ef
h e w a s t r yi n g t o e n t e r a v a c a n t h o m e, n o t f o r l oi t e ri n g. A s
st at e d a b o v e, t h e P a r ti e s i n t hi s c a s e a g r e e o n t h e f a c t s
r el e v a n t t o t h e di s p o si ti o n of M r. H o w s e ’s cl ai m s a n d t h e r e i s
n o e vi d e n c e of r e c o r d t o s u p p o r t M r. St e p h e n s o n ’s o pi ni o n
t h at t h e D e t e c ti v e s “ m a d e a c o n s ci o u s d e ci si o n t o c r e at e a n d
f ab ri c at e a p r o b a bl e c a u s e s c e n a ri o i n t h ei r U s e of F o r c e
r e p o r t s ” o r t h at offi ci al p oli c y o r c u st o m e xi st e d wi t hi n t h e
Ci t y of Cl e v el a n d o r i t s P oli c e D e p a r t m e n t w hi c h r e s ul t e d i n
a n y i nj u r y t o M r. H o w s e.

3

A p p. 6 3
h e r e b y G R A N T E D.
E a c h p a rt y s h all b e r e s p o n si bl e f o r t h ei r o w n
att o r n e y f e e s a n d c o st s.
T hi s c a s e i s h e r e b y T E R M I N A T E D.
I T I S S O O R D E R E D.

D AT E D

A p p. 6 4
A P P E N DI X C
R E C O M M E N D E D F O R
P U B LI C A TI O N

P U R S U A N T T O SI X T H CI R C UI T
I. O . P. 3 2. 1( b)

F il e N a m e: 2 0 a 0 1 7 7 p. 0 6
U NI T E D S T A T E S C O U R T O F
A P P E A L S F O R T H E SI X T H
CI R C UI T

S H A S E H O W S E,

P l ai ntiff-A p p ell a nt ,

v.

N o. 1 9 -3 4 1 8

T H O M A S H O D O U S a n d B RI A N
M I D D A U G H, i n di vi d u all y a n d i n
t h eir off i ci al c a p a citi e s a s e m pl o y e e s
of t h e Cit y of Cl e v el a n d, O hi o; C I T Y
O F C L E V E L A N D, O H I O,
D ef e n d a nt s -A p p ell e e s .
O n P etiti o n f o r R e h e a ri n g E n B a n c
U nit e d St at e s Di st ri ct C o u rt f o r t h e N o rt h e r n
Di st ri ct of O hi o at Cl e v el a n d.
N o. 1 : 1 7-c v -0 1 7 1 4 — D o n al d C. N u g e nt, Di st ri ct
J u d g e.
D e ci d e d a n d Fil e d: J u n e 8, 2 0 2 0

A p p. 6 5
C O L E, C hi ef J u d g e; C O O K a n d
T H A P A R, Ci r c uit J u d g e s.

C O U NS E L
O N P E T I T I O N F O R R E H E A R I N G E N B A N C:
C h ri st o p h e r K e m mitt, N A A C P L E G A L D E F E N S E
A N D E D U C A T I O N A L F U N D, I N C., W a s h in gt o n,
D. C., J a m e s L. H a r di m a n, Cl e v el a n d, O hi o, f o r
A p p ell a nt. O N R E S P O N S E: El e n a N. B o o p, C I T Y
O F C L E V E L A N D, Cl e v el a n d, O hi o, f o r A p p ell e e s
H o d o u s a n d Mi d d a u g h. Ti m ot h y J. P ui n, C I T Y O F
C L E V E L A N D, Cl e v el a n d, O hi o, f o r A p p ell e e Cit y of
Cl e v el a n d
T h e p a n el d eli v e r e d a n o r d e r. G I B B O N S,
J . ( p g. 3), d eli v e r e d a s e p a r at e di s s e nti n g o pi ni o n
in w hi c h C O L E, C. J., a n d W H I T E, J., j oi n e d

A p p. 6 6
O R D E R

T h e c o u rt r e c ei v e d a p etiti o n f o r r e h e a ri n g e n
b a n c. T h e o ri gi n al p a n el h a s r e vi e w e d t h e p etiti o n f o r
r e h e a ri n g a n d c o n cl u d e s t h at t h e i s s u e s r ai s e d i n t h e
p etiti o n w e r e f ull y c o n si d e r e d u p o n t h e o ri gi n al
s u b mi s si o n a n d d e ci si o n.
T h e p etiti o n t h e n w a s
ci r c ul at e d t o t h e f ull c o u rt. L e s s t h a n a m aj o rit y of
t h e j u d g e s v ot e d i n f a v o r of r e h e a ri n g e n b a n c.
T h e r ef o r e, t h e p etiti o n i s d e ni e d.
E NT E R E D B Y O R D E R OF T H E C O U RT

D e b o r a h L. H u nt, Cl e r k

A p p. 6 7
DI S S E N T

G I B B O N S,
Ci r c uit J u d g e, di s s e nti n g. I
r e s p e ctf ull y di s s e nt f r o m t h e c o u rt ’s d e ni al of e n b a n c
r e h e a ri n g. T h e p a n el ’s h ol di n g wit h r e s p e ct t o
m a li ci o u s p r o s e c uti o n cl ai m s, w hi c h a d o pt s a o n esi z e -fits -a ll a p p r o a c h t o f al s e a r r e st a n d m ali cio u s
p r o s e c uti o n, i s a
p r e c e d e nt -s etti n g e r r o r of
e x c e pti o n al p u bli c i m p o rt a n c e. It i s at o d d s wit h
S u p r e m e C o u rt p r e c e d e nt, s e e W all a c e v. K at o , 5 4 9
U . S. 3 8 4, 3 9 0 ( 2 0 0 7) ( d e s c ri bi n g t h e cl ai m s a s
“e nti r el y di sti n ct ”), a n d o u r p r e c e d e nt s, s e e, e. g. ,
J a c o b s v. Al a m , 9 1 5 F. 3 d 1 0 2 8, 1 0 4 2 – 4 3 ( 6t h Ci r.
2 0 1 9) ( s a m e). A n d it f ail s t o e n g a g e wit h t h e m a n y
c o m p elli n g r e a s o n s off e r e d b y o u r si st e r ci r c uit s f o r
d e cli ni n g t o a d o pt s u c h a n a p p r o a c h. S e e, e. g. , H ol m e s
v. Vill. of H off m a n E st at e , 5 1 1 F. 3 d 6 7 3, 6 8 2 ( 7t h Ci r.
2 0 0 7).
B u t I di s s e nt f o r a s e c o n d r e a s o n. I n q u alifi e d
im m u nit y c a s e s, w e h a v e l o n g h el d t h at a pl ai ntiff ’s
r i g ht m u st b e d efi n e d wit h c a r ef ul att e nti o n t o t h e
“s p e cifi c f a ct u al ci r c u m st a n c e s ” of t h e c a s e. S c h ul k e r s
v. K a m m e r , 9 5 5 F. 3 d 5 2 0, 5 3 3 ( 6t h Ci r. 2 0 2 0). A n d
y et, i n f r a mi n g S h a s e H o w s e ’s ri g ht i n t hi s c a s e, t h e
p a n el f ail s t o a c c o u nt f o r hi s s u s p e ct e d c ri mi n alit y
( no n e), l o c ati o n ( h o m e), o r c o n d u ct (t r ut hf ull y
a n s w e ri n g q u e sti o n s).
We
a r e oft e n c o nf r o nt e d wit h t r o u bli n g
a ll e g ati o n s of offi ci al mi s c o n d u ct t h at r e s ult i n n o
li a bilit y b e c a u s e t h e pl ai ntiff d efi n e s hi s p e r c ei v e d
r i g ht t o o g e n e r all y. W hil e t h e s e diffi c ult c a s e s
f re q u e ntl y
r ai s e
gr o u n ds
f or
r e a s o n a bl e
d i s a g r e e m e nt— a n d
r a r e ly
w a r r a nt
en
b a nc

A p p. 6 8
r e h e a ri n g — o u r c a s e s a r e u n a ni m o u s i n h ol di n g t h at
a pl ai ntiff ’s ri g ht m u st b e c a r ef ull y d efi n e d. W h e n w e
d e p a rt f r o m t hi s w ell -a c c e pt e d r e q ui r e m e nt, w e e r o d e
o n e of t h e g r e at e st s o u r c e s of c o nfi d e n c e i n t h e
j u di ci a r y: t h e c o n si st e n c y of o u r j u ri s p r u d e n c e.

